<html>
<title> - SOMALIA: U.S. GOVERNMENT POLICY AND CHALLENGES</title>
<body><pre>[Senate Hearing 109-874]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-874
 
             SOMALIA: U.S. GOVERNMENT POLICY AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2006

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-879                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                    MEL MARTINEZ, Florida, Chairman

LAMAR ALEXANDER, Tennessee           RUSSELL D. FEINGOLD, Wisconsin
NORM COLEMAN, Minnesota              PAUL S. SARBANES, Maryland
JOHN E. SUNUNU, New Hampshire        CHRISTOPHER J. DODD, Connecticut
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Coleman, Hon. Norm, U.S. Senator from Minnesota..................     3
Feingold, Hon. Russell, U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Frazer, Hon. Jendayi E., Assistant Secretary for African Affairs, 
  Department of State, Washington, DC............................     3
    Prepared statement...........................................     5
Hess, Hon. Michael E., Assistant Administrator for Democracy, 
  Conflict and Humanitarian Assistance, U.S. Agency for 
  International Development, Washington, DC......................     9
    Prepared statement...........................................    10
Le Sage, Dr. Andre, assistant professor and academic chair for 
  terrorism and counterterrorism, The Africa Center for Strategic 
  Studies, National Defense University, Washington, DC...........    24
Morrison, J. Stephen, director, Africa Program, Center for 
  Strategic and International Studies, Washington, DC............    20
    Prepared statement...........................................    22
Shinn, Hon. David H., adjunct professor, The Elliot School of 
  International Affairs, The George Washington University, 
  Washington, DC.................................................    27
    Prepared statement...........................................    29

                                 (iii)

  


             SOMALIA: U.S. GOVERNMENT POLICY AND CHALLENGES

                              ----------                              


                         TUESDAY, JULY 11, 2006

                                   U.S. Senate,    
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:09 p.m., in 
room 419, Dirksen Senate Office Building, Washington, DC, Hon. 
Mel Martinez, presiding.
    Present: Senators Coleman, Martinez, and Feingold.

 OPENING STATEMENT OF HON. RUSSELL FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Senator Martinez will be here shortly. We 
will either pass the--I'm Senator Feingold and I certainly 
appreciate the chairman's tremendous courtesy in scheduling 
this hearing on this important topic. I'll begin with my 
opening remarks and then we will start with the testimony if 
the chairman has not arrived. If he has arrived, obviously, 
we'll turn it back in for his conference.
    I'm glad that we have this chance to explore United States 
Government policy toward Somalia with our witnesses at this 
critical time. I think we all share a sense of frustration 
about Somalia. We are facing the same challenges in Somalia 
that we faced for over a decade, including lawlessness, 
terrorist safe haven, illicit power structures, dire 
humanitarian conditions, criminal activities, and other 
symptoms of the lack of a functional central government for 
over 15 years. In fact, I chaired a hearing of this committee 
in February 2002 on this exact topic. We discussed policy 
options. We discussed setting up an international contact 
group. We discussed terrorism and al-Qaeda. We discussed the 
absence of a transitional government. We discussed the need for 
a more robust, comprehensive U.S. Government policy. Most 
importantly and most troubling to me now, in today's context, 
we also discussed how important Somalia was to our national 
security in a post-9/11 context and how we needed to do more.
    And here we are, July 2006. Somalia is still a haven for 
terrorists. The Transitional Federal Government can't move out 
of Baldoa and has very little capacity to govern. Islamic 
extremists have taken Mogadishu and are expanding their control 
throughout the south and central parts of the country. Extreme 
poverty grips the entire country and most troubling, the U.S. 
Government was ``surprised.'' That is what Ambassador Crumpton, 
the State Department's Counterterrorism Coordinator, said a few 
weeks ago in front of the full Foreign Relations Committee 
about the Islamist Court's Union seizing of Mogadishu. Should 
we be surprised that one Action Officer in Nairobi and a half 
an Action Officer here in Washington within the State 
Department isn't enough to handle such a wide-ranging and 
crippling series of political and economic challenges that face 
Somalia. Should we be surprised that the U.S. Government has 
been unable to react in a coordinated fashion without a broader 
strategy? Should we be surprised that after years of asking, we 
still haven't seen a comprehensive strategy, or that we hear 
from a variety of officials within and outside of the U.S. 
Government than in fighting, a lack of leadership and a lack of 
policy are crippling our response to Somalia. We shouldn't be 
surprised but we should all be disappointed that 13 years after 
we lost United States Rangers, we are no further along in 
establishing a form of lasting peace and stability in Somalia 
than we were in the early 1990s and this needs to change. We 
need to recognize that Somalia is a front line in the broader 
fight against terrorism and that it needs more than just 
intermittent attention. Then Assistant Secretary of State, 
Walter Kansteiner, one of Secretary Frazer's predecessors, was 
with us at that hearing in 2002. He outlined the need to form 
an international contact group. He talked about a three-prong 
strategy that sounds almost identical to the strategy that the 
administration has been talking about over the past few weeks. 
He outlined the importance that Somalia plays to our national 
security. He talked about the need to think regionally and to 
address the issue of Somaliland. All things, I'm sure, we're 
going to talk about today.
    This is what I think we all agree we need: A comprehensive 
strategy for Somalia that establishes a robust framework for 
dealing with the full range of challenges facing Somalia and 
the region. This framework needs to be led by the Department of 
State and should include all other agencies involved in 
relating to or thinking about Somalia. It needs to deal with 
the complex political, economic, humanitarian, and security 
related concerns in Somalia and the region and must take into 
account the complexity of conditions on the ground. It also 
needs to reflect the fact that our efforts to date haven't been 
sufficient and that if we're going to heed our own advice and 
warnings about Somalia, we need to recalibrate and strengthen 
our efforts. This is precisely why I introduced, and the Senate 
passed, a bipartisan amendment to the defense author-
ization bill 3 weeks ago that calls for a comprehensive
Somalia strategy. It is a reflection of the fact that we've 
been asking for a comprehensive strategy for years and haven't 
received one. It is a reflection of the fact that there remains 
confusion within the United States Government about who is 
responsible for our policies and activities in Somalia. It is a 
reflection of the fact that we need a strategy that brings 
together all of our capabilities to address the root causes of 
instability throughout Somalia, while also addressing the 
current crisis. The strategy needs to be clear and it also 
needs sufficient energy behind it. We need to spend more time 
on this at senior levels in Government. This is a problem that 
has to be managed daily by officials who are senior enough to 
wrangle with the interagency, the international community and 
regional players. I'm very glad that Secretary Frazer is here. 
I believe she will answer our questions honestly and clearly. 
I'm also glad that Mike Hess is here representing USAID and 
finally, I'm looking forward to hearing from our second panel, 
composed of individuals who have been working with us on this 
committee, and on this issue specifically, for a number of 
years. I hope we can gain a better understanding of where U.S. 
Government policy has been over the last few years, where it is 
going and what we can do to help establish peace in this 
critical region. This is an issue that matters for the people 
of Somalia, for stability in the region and above all, for our 
own national security. I notice the chairman is not here, but I 
am pleased to see my friend and colleague, Senator Coleman, who 
has worked closely with me on this issue of Somalia and I ask 
him if he'd like to make any reply.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Senator Feingold. The chairman 
should be here just momentarily. We were just finishing up 
something together, so he's going to be right behind me.
    I understand we have some time constraints here and I would 
very much like to hear from the witnesses and then follow up. 
Obviously, this is--the instability in Somalia is of deep 
concern. From a personal level, Minnesota has a very large 
Somalian community but just generally, in terms of the prospect 
of centers of terrorism that could have a very destabilizing 
impact on the entire African Embassy, in content and beyond 
that, so I'm going to reserve my comments. The chairman is 
right here but I do want to say, we have some time constraints 
and I want to respect the time of the witnesses.
    Senator Feingold. Mr. Chairman, I've made an opening 
statement and Senator Coleman made some remarks. Both of our 
witnesses, distinguished witnesses, have very limited time. 
I'll obviously turn the chair back to you.
    Senator Martinez. Thank you very much and I apologize. We 
were delayed at a policy lunch but I would like to go ahead and 
allow the witnesses to begin their testimony and I'll reserve 
my opening remarks for after we're finished under your time 
constraints.
    Secretary.

  STATEMENT OF HON. JENDAYI E. FRAZER, ASSISTANT SECRETARY FOR 
      AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Frazer. Thank you very much, Chairman Martinez, Senator 
Feingold, and Senator Coleman for calling today's hearing. I 
appreciate having the opportunity to discuss Somalia-U.S. 
Government policy and challenges. Somalia is one of the most 
pressing challenges facing the United States within sub-Saharan 
Africa today and I look forward to exploring how we can work 
together to address our multiple interests in Somalia and the 
Horn and with your permission, Mr. Chairman, I will submit my 
longer, written testimony for the record.
    Senator Martinez. It will be accepted.
    Ms. Frazer. Thank you. Continued instability in Somalia has 
exacerbated already poor humanitarian conditions within Somalia 
and threatens regional security more broadly throughout East 
Africa. Moreover, terrorists have been given sanctuary in this 
uniquely failed state.
    A common theme that was reinforced during my recent trip to 
the region--I went to Ghana, Kenya, Djibouti, and Ethiopia to 
discuss Somalia, is that to address the challenges posed by the 
country, we must work in coordination with our international 
partners and Somali leaders to achieve our common goals to 
restore peace and stability in the country by strengthening the 
Transitional Federal Institutions assisting the Somali people, 
preventing Somalia remaining a haven for terrorists and 
building regional security and stability.
    Among the realities that we have faced since September 11, 
are several that are germane to Somalia. First, civil conflict 
and war in another country cannot be safely ignored. Second, 
the United States faces a global network of terrorists who seek 
to harm Americans. Last, failed states often become breeding 
grounds for terrorists permeability and arms trafficking that 
spread chaos beyond the borders of a single country and without 
an effective central government, nations are vulnerable to 
exploitation by violent extremists. The continued existence of 
a failed state in Somalia poses such a threat. For all these 
reasons, President Bush and Secretary Rice have made it a 
priority to confront the ongoing turmoil in Somalia with a 
multilateral, coordinated strategy. One of the priorities of 
the International Somali Contact Group is engaging the parties 
in Somalia to encourage dialog and inclusion or broad 
participation as the basis for establishing a stable and 
legitimate government. The United States, with the 
Intergovernmental Authority on Development, IGAD, the African 
Union, the United Nations, the European Union, and the Arab 
League, view the Transitional Federal Institutions and Charter 
as a legitimate governing body in Somalia. We will work to 
strengthen their capacity to Transitional Federal Institutions 
and continue to urge dialog between the TFI and Islamic Courts 
Council.
    Clearly, the situation in Somalia is very fluid. 
Developments on the ground are constantly changing. We view the 
June 22 meeting in Khartoum that resulted in a seven-point 
agreement that recognized the legality and legitimacy of the 
Transitional Federal Institutions as the governing institutions 
in Somalia, yet also recognizes the reality of the Islamic 
Courts' presence in Mogadishu as a very positive development. 
While there still must be follow-up actions to demonstrate both 
sides' commitment to working to reestablish effective 
governance in Somalia, we hope this dialog will continue at the 
next meeting in Khartoum on July 14.
    In addition, it is imperative that Somali leaders reach out 
to key stakeholders, such as the business community, clan 
leaders, civil society, and religious leaders to broaden the 
level of participation and legitimacy in the TFIs. In our 
efforts to make Africa both safer and better, the 
administration will continue to engage the African Governments 
in the region in an effort to support their efforts in Somalia 
and the Horn. Leaders in the region are urging stronger U.S. 
engagement. They understand it is especially important to 
address the political stability and security situation because 
of its implications for the entire Horn. Hundreds of thousands 
of refugees and economic migrants have fled into neighboring 
countries and continue to flee conflict, drought, and 
persecution. The terrorists' attack on United States embassies 
in Nairobi and Dar es Salaam killed more Kenyans and Tanzanian 
citizens than Americans, as did the attack on the Mombasa Hotel 
in 2002 that was planned from Somalia. Given all of these 
moving pieces, U.S. policy will encourage and support regional 
leadership, especially IGAD and the A.U. There is no resolving 
the situation in Somalia without taking its neighbors into 
account. We speak with one voice, I believe, except Eritrea, in 
opposing an extremist Jihadist takeover of the
Government in Somalia. American policy remains holistic. While 
making sure to address counterterrorism concerns, U.S. policy 
also focuses on governance, institution building, humanitarian 
assistance for the Somalia people, and a general improvement in 
regional security and stability. Taken together, this 
multipronged approach will require Congressional support and 
funding to achieve. We believe with your support that we are on 
the right course in both the short term and in the years ahead. 
Thank you again for calling this hearing today and I am happy 
to take any questions that you may have.
    [The prepared statement of Ms. Frazer follows:]

 Prepared Statement of Hon. Jendayi E. Frazer, Assistant Secretary for 
          African Affairs, Department of State, Washington, DC

    Thank you, Chairman Martinez and Senator Feingold for calling 
today's hearing. Somalia is at the top of the sub-Saharan African 
portfolio. I appreciate the opportunity to appear here to discuss the 
challenges and the way forward for the United States in Somalia.
    Instability in Somalia has exacerbated humanitarian conditions 
inside Somalia and threatens regional security more broadly in East 
Africa. Policy makers in Washington, DC, must work with our 
international partners and Somalia's leaders to coordinate our common 
efforts to restore peace and stability in Somalia.

                           HISTORICAL CONTEXT

    With the benefit of hindsight, it is clear that this country was 
lulled into a false sense of security during the 1990s. Following the 
bombings of the U.S. Embassies in Kenya and Tanzania in 1998, the 
attack on the U.S.S. Cole in 2000, and the horrific events of September 
11, 2001, the national discourse shifted. American policy makers now 
understand dynamics overseas through a new prism; decisions are tinged 
with the knowledge that brutal regimes and nonstate actors allowed to 
operate within those regimes are a threat to us all if they acquire 
destructive technology.
    Among the lessons learned from September 11 is that another 
country's disharmony cannot be safely ignored. Regardless of physical 
distance, in this age of international connectivity, we are all within 
harm's reach. Second, we are faced with a global network of individuals 
who oppose liberty in all its forms; the United States is anathema to 
their very being and inspires ghastly plans intended to harm. Last, 
failed states can be the very breeding ground for those plans and 
terrorist acts. Without an effective central government, nations are 
vulnerable to the exploitation of violent extremists.
    The continued existence of a failed state in Somalia poses such a 
threat. For all of these reasons, Secretary Rice considers it 
imperative to confront, rather than ignore, the ongoing turmoil in 
Somalia. The Department of State recognizes the need for an 
orchestrated, multilateral, whole-of-systems approach, and has reached 
out to other concerned parties to form an International Somalia Contact 
Group to help coordinate a comprehensive response. We are actively 
working with our international partners to support the reestablishment 
of an effective government in Somalia, capable of addressing the 
international community's concerns regarding terrorism and the 
humanitarian needs of the Somali people. The lack of effective and 
legitimate governing structures in Somalia is a main source of its 
humanitarian strife, conflict, and instability. The Transitional 
Federal Charter and Transitional Federal Institutions represent an 
ongoing transitional political process that provides a legitimate 
framework for reestablishing governance in Somalia. We need to seize 
that opportunity to encourage inclusive dialog between Somali parties 
and to incorporate these key stakeholders into the Transitional Federal 
Institutions.

                         THE PRESIDENT'S VISION

    Shortly after his inauguration, President George W. Bush instructed 
his foreign policy staff that their primary goal would be to make the 
world ``safer, freer, better.'' Since 2001, that has been our goal 
statement, and it continues to be the guiding principle of the 
administration's Africa policy.
    Over the last 5 years, the United States has actively engaged to 
end conflict in six African hot spots, including Angola, Burundi, 
Democratic Republic of Congo, Liberia, Sierra Leone, and the North-
South element of the Sudan crisis. The United States has supported 
democratic elections throughout Africa, including parliamentary 
elections in the self-declared ``Republic of Somaliland'' in September 
2005. More than two-thirds of sub-Saharan African countries have had 
democratic elections since 2000. From Senegal to Tanzania, from Ghana 
to Zambia, power peacefully changed hands.
    We are working to make Africa safer, freer, and better through 
sustained engagement with local, regional, and international partners. 
This means not only supporting Africans as partners using local 
knowledge to solve local problems, it also means supporting the 
formation and cohesion of the institutions that constitute a free 
society, namely a vibrant civil society including free media, 
independent judiciary and legislature, political parties, and an 
impartial, independent electoral commission to oversee elections. We 
are working, both regionally and bilaterally, to help build government 
institutions that can deliver security and essential services like 
health and education.
    The United States is contributing generously toward improved 
democratic governance, health and economic growth in Africa, and we are 
actively engaged in denying safe haven to terrorists with the help of 
African partners. The African continent finds itself involved in the 
global war on terror and Somalia, in particular, is a critical element 
of our broader efforts to fight global terrorism. The continued absence 
of an effective central government has resulted in a safe haven for 
terrorists and a humanitarian crisis for the local population. But this 
is not just a national problem. The instability within Somalia's 
borders and among its numerous neighbors negatively impacts the Horn of 
Africa and Yemen more generally as hundreds of thousands of refugees 
and economic migrants have fled and continue to flee conflict, drought, 
and persecution.

           ENGAGING THE HORN OF AFRICA IN A REGIONAL STRATEGY

    On June 26, I returned to Washington, DC, from East Africa. The 
Secretary dispatched me to the region to seek the counsel of 
neighboring nations, and offer suggestions on how the United States can 
best address the changing dynamics in Somalia and the region in the 
weeks and months ahead. Over the course of several days, I visited 
leaders from Uganda, Kenya, Ethiopia, and Djibouti--Somalia's neighbors 
and members of the Intergovernmental Authority on Development (IGAD)--
as well as representatives from IGAD and the African Union (A.U.), and 
the Arab League.
    While in Kenya, I also had the opportunity to meet with the 
leadership of the Somalia Transitional Federal Institutions, including 
the Speaker of Parliament, Sharif Hassan Sheikh Adan, President 
Abdullah Yusuf, and Prime Minister Ali Mohamed Gedi. Collectively, this 
trip contributed to a more complete understanding of the situation in 
Somalia.

           REFLECTING ON POLICY AND PROGRAMMATIC IMPLICATIONS

    The situation in Somalia and the region more broadly is incredibly 
dynamic. There is a great deal of movement and fragility. We continue 
to closely monitor developments in Somalia and efforts toward dialog 
between the Transitional Federal Institutions and representatives from 
the Islamic courts. The first meeting in this dialog took place in 
Khartoum on June 22 and resulted in a seven-point agreement that 
recognized the ``reality'' of the Islamic courts and the ``legality'' 
of the Transitional Federal Institutions.
    While the outcomes from the meeting in Khartoum represented a 
positive first step, follow-on actions must demonstrate both sides' 
commitment to working together within the framework of the Transitional 
Federal Charter to support the reestablishment of effective governance 
in Somalia. The International Somalia Contact Group intends to 
encourage these developments in a way that promotes respect for the 
Transitional Federal Charter and inclusion of the Islamic courts into 
the Transitional Federal Institutions. The next meeting is scheduled to 
take place in Khartoum on July 15 and will provide a clear indication 
of both parties' willingness to engage in constructive dialog. This 
dialog must also be broadened as soon as possible to include other key 
stakeholders in Somalia, such as regional authorities, religious 
leaders, civil society, and the business community.
    While political dialog continues to take place, ongoing civil 
strife, interclan conflicts, and the lack of a functioning central 
government further complicate the humanitarian situation and limit 
access to affected areas in Somalia. Access to basic services remains a 
key friction point between communities in Somalia. The presence and 
intensity of conflict will continue to be a key factor in the 
humanitarian situation and affect how the international community can 
best respond to dynamics in Somalia.
    Despite these rapidly changing dynamics, the goals for United 
States policy remain clear--address the threat of terrorism, support 
the reestablishment of effective governance and political stability, 
respond to the humanitarian needs of the Somali people, and promote 
regional security and stability. While counterterrorism remains a core 
concern for the United States, it is not the only tenet of our 
strategy. To address Somalia's instability, we must focus on governance 
and institution building, humanitarian assistance for the Somali 
people, and improving regional security and stability. These issues 
are, of course, mutually reinforcing and also provide support for our 
counterterrorism efforts.

                        CONCERNS ABOUT TERRORISM

    In pursuing these key policy objectives, the Department of State 
remains cognizant of the challenges the United States Government faces 
in Somalia. Foreign terrorists are able to exploit the continued lack 
of governance and find a safe haven in Somalia, while the continued 
flow of arms and criminality into and out of the country threatens the 
security of the broader region.
    This reality compels American policy makers to develop a regional 
approach to engagement; no approach can succeed without accounting for 
Somalia's neighbors. Toward that end, the Department of State is 
working with East African countries to build their capacity to 
counterterrorism and the criminality that originates in Somalia. Our 
efforts will promote increased stability and safety within the Horn of 
Africa through new funding and the development of specific follow-on 
measures to the President's East Africa Counterterrorism Initiative 
(EACTI), which was announced in 2003.
    In addition, we remain deeply troubled that foreign terrorists have 
found safe haven in Somalia, including some of the individuals who 
perpetrated the 1998 bombings of two United States Embassies in Dar es 
Salaam, Tanzania, and Nairobi, Kenya, as well as the 2002 attacks 
against an Israeli airliner and hotel in Mombasa, Kenya. These 
individuals--Abu Talha al Sudani, Fazul Abdullah Mohamed, and Saleh Ali 
Saleh Nabhan--pose an immediate threat to both Somali and international 
interests in East Africa and the Horn of Africa subregion. American 
counterterrorism concerns are directly related to the presence of these 
foreign terrorists and individuals willing to offer them safe haven 
within Somalia. We must therefore take strong measures to deny 
terrorists a safe haven in Somalia--we must deny them the ability to 
plan and operate.
    While the broad policy goals outlined above will remain constant, 
we are always reviewing and updating our approach to reflect the fluid 
dynamics inside Somalia. The United States Government remains committed 
to neutralizing the threat that al-Qaeda poses to all Americans, 
Somalis, and citizens in neighboring East African countries.
    Somalia cannot continue to serve as a safe haven for terrorists. 
The United States Government will continue working with Somalis, 
regardless of clan, religious, or secular affiliation. We have called 
upon the leaders within the Islamic courts to render foreign terrorist 
operatives currently in Somalia to justice. Such affirmative steps 
would improve security inside Somalia and support efforts to stabilize 
the region. Consistent with United States policy globally, there has 
been an effort to reach out and develop relationships with individuals 
who can provide useful data with regard to locating terrorists. The 
primary, guiding imperative for all of these interactions is combating 
terrorism.

                       INTERNATIONAL COOPERATION

    In addition to the immediate concerns regarding terrorism, the 
situation in Somalia poses a range of challenges to international 
actors. Concerns remain about humanitarian and socioeconomic conditions 
in Somalia, as well as governance structures, human rights, domestic 
security, and regional stability.
    These are sizable, and possibly daunting, goals. We recognize that 
there are no easy answers and seek to ensure that our engagement can 
adapt to the constantly changing dynamics in Somalia. This challenge 
has been compounded by longstanding insecurity, which limits the 
presence of foreign diplomats and other outside actors inside Somalia. 
For these reasons, outside actors must exercise a great deal of caution 
in our engagement. Our prospects for success are greatest if we are 
first transparent in our objectives, and second, fully engaged with 
international and regional actors. In this regard, we are working to 
cultivate and utilize the existing international and regional consensus 
on the way forward in Somalia through continued close engagement with 
our international partners. We can and should work closely with our 
constructive partners, while seeking to deter any state or nonstate 
actors that are playing damaging roles.
    The formation of the International Somalia Contact Group, as a 
means of greater policy coordination among members of the international 
community, is a positive step. At the first meeting on June 15, the 
members of the International Somalia Contact Group reached agreement on 
our common policy goals and objectives in Somalia. This group includes 
representatives of the African Union (A.U.), the United Nations (UN), 
the European Union (E.U.), the United States, Sweden, Norway, Italy, 
and Tanzania. The Arab League and IGAD have been invited to participate 
in future discussions. The international community is now galvanized 
and has begun working toward sustainable solutions in Somalia.
    The goal of the International Somalia Contact Group's ongoing 
discussions is to form a multilateral coalition that can engage the 
parties in Somalia and encourage stability and movement in a 
constructive and positive direction. This is not an executive grouping. 
Rather, the focus is on sharing information, coordinating our common 
policy objectives, and forging workable solutions. The international 
community is united by shared concerns about the local and regional 
ripple effects of Somalia's internal dynamics.
    The next meeting of the International Somalia Contact Group will be 
held in Brussels on July 17, in an effort to build upon successes from 
the first meeting and create sustained momentum. By coordinating common 
policy objectives and sharing information on political developments in 
Somalia, the International Somalia Contact Group will become a vehicle 
to encourage positive developments, while offering support for the 
implementation of the Somalia Transitional Federal Charter and 
Transitional Federal Institutions.

                            THE WAY FORWARD

    The Transitional Federal Charter and Transitional Federal 
Institutions offer Somalia a way forward, following the Somalia 
National Reconciliation Conference in Kenya from 2002-2004, through a 
transitional political process leading to a transfer to an elected, 
representative government by 2010. The Charter and Institutions provide 
a viable framework for continued progress based on the consensus of the 
Somali people.
    The existence of the Charter and Institutions does not obviate the 
need for inclusive political dialog and the inclusion of key 
stakeholders into the ongoing transitional process. The dialog that has 
already begun to take place between the Islamic courts and Transitional 
Federal Institutions must continue to take place and, as soon as 
possible, be expanded to include the broader elements of Somali 
society, including civil society leaders, business leaders, regional 
authorities, religious leaders, clan elders, and other key stakeholder 
groups.
    The Transitional Federal Institutions currently lack any 
administrative and institutional capacity, making the need for mid-
level capacity-building and technical assistance an immediate priority 
for the international community. At the next meeting of the 
International Somalia Contact Group in Brussels on July 17, we will 
discuss concrete ways for the international community to encourage 
greater participation from key stakeholders in the political process 
and help build the mid-level capacity of the Transitional Federal 
Institutions.
    In the weeks ahead, I expect to participate in further discussions 
with international partners. After my recent trip to the region, it is 
clear that instability in Somalia has worsened the humanitarian 
conditions for the civilian population. Since the beginning of the 
year, over 11,000 new Somali refugees have fled from these worsening 
conditions into Kenya alone and there are reports of smaller flows into 
Ethiopia.
    The international community now stands at a crossroads. The outcome 
is dependent on our will, our ability to work cooperatively, and the 
quality of our joint decisions. Thank you again, Chairman Martinez, for 
convening this important hearing. It is important that United States 
Government policy makers discuss the pressing issues at hand and find a 
workable plan for moving ahead in Somalia and in the Horn of Africa.

    Senator Martinez. Thank you, Secretary Frazer. At this 
time, why don't we--I'll call on you, Mr. Hess, for your 
remarks.

STATEMENT OF HON. MICHAEL E. HESS, ASSISTANT ADMINISTRATOR FOR 
 DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, U.S. AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Hess. Thank you, Chairman Martinez, Senator Feingold, 
Senator Coleman. It is an honor to be here and a privilege to 
talk about this important subject and we appreciate your 
calling this hearing so that we can testify. I would also like 
to submit my written testimony and just highlight a few facts.
    Senator Martinez. Your testimony will be accepted as part 
of the record.
    Mr. Hess. Thank you, sir. In late 2005, when it became 
clear through our Famine Early Warning System and through 
partners that we have in the region, that the long rains were 
not going to be successful. This followed a pattern of three 
unsuccessful rainy periods in the Horn of Africa. Therefore, we 
began in October and November of last year, to start to divert 
resources to the region, particularly to Somalia, Ethiopia, and 
Kenya because we knew that the areas were going to be severely 
affected by this lack of rains.
    If you look at the map, here, that I've presented. You can 
see the orange area highlighted. That shows the most affected 
region. I'll talk a little bit about that. But in Somalia in 
particular, we estimated that there were about 1.7 million 
people who would be affected by this lack of rain and their 
pastoralists' livelihoods and the agropastoralists in the 
region coupled with about 400,000 displaced personnel within 
the region. We estimated there were somewhere around 2.1 
million people who need some sort of humanitarian assistance in 
the region. Therefore, we began diverting resources into the 
region such that by this time this year, we have committed over 
$90 million in humanitarian assistance and other developmental 
funds to Somalia. That includes over 121 thousand metric tons 
of food that have been delivered to Somalis in the region. 
Water sanitation help, which we worked through our partners, 
Nutritional Assistance Education, to try to build civil society 
and conflict mitigation.
    Today, we have just--our organizations that we support 
there have just finished nutritional surveys in Southern and 
Central Somalia. The initial indications are that the Global 
Acute Malnutrition Rate in Gedo is about 23.9 percent and in 
the middle Juba region, runs somewhere between 16 percent and 
21.9 percent. Fifteen percent is considered a humanitarian 
disaster so you can see that all of those Global Acute 
Malnutrition rates are way above those levels. Based on those 
levels, we have engaged our partners to continue community 
therapeutic feeding programs throughout the southern and 
central regions. But Fred Kuny taught us a long time ago that 
drought does not cause a famine. It is a lack of governance 
that leads to famine. And so while we are trying to alleviate 
the suffering and stop the dying, we are also looking at the 
long-term conditions that lead to these disastrous conditions 
within the region, not just in Somalia but in the whole region. 
Therefore, we are looking at markets, roads, livelihoods, 
alternative livelihoods, and some support for governance as 
Secretary Frazer has indicated.
    In closing, I appreciate the opportunity to talk to you 
about our work today. As you know, I was not able to visit 
Somalia on my last visit there. They don't let us in. They 
don't appreciate our visits. But I did go to Kenya and 
Ethiopia, the Somali region, where we saw some of the Somali 
people and I actually met with some of the Somali people in 
Mandara. That was very helpful. These are strong people who 
have suffered a great deal over the last number of years and 
they appreciate what we are doing for them in their region. We 
have done our best. We will continue to do our best and 
anticipate that we will deliver the assistance that they need 
to strengthen local capacities, build community resilience and 
plan sustainable gains.
    Sir, that concludes my testimony. I would be happy to take 
your questions.
    [The prepared statement of Mr. Hess follows:]

Prepared Statement of Hon. Michael E. Hess, Assistant Administrator for 
   Democracy, Conflict and Humanitarian Assistance, U.S. Agency for 
               International Development, Washington, DC

    Mr. Chairman, members of the subcommittee, it is an honor to appear 
before you today to participate in a discussion on United States 
Government policy and challenges in Somalia.

                               BACKGROUND

    In late 2005, the international community began to see ominous 
signs indicating that the previous months' failed rains were going to 
have disastrous consequences for about 1.7 million pastoralists and 
agropastoralists in the central and southern regions of the country if 
immediate actions were not taken. Thanks to a robust humanitarian 
response, adequate rains, and a fragile but permissible operating 
environment, famine has been averted.
    To date, in fiscal year 2006, USAID has committed more than $90 
million to the ongoing complex emergency in Somalia. This assistance 
includes 121,760 metric tons of emergency food assistance, the 
provision of water, sanitation, and nutrition interventions in the most 
affected regions of the country, as well as education, civil society 
building, and conflict mitigation activities.
    Malnutrition rates remain critically high. The long rainy season 
from April to June brought only limited relief. Large areas in Gedo, 
Bakol, and Hiran, as well as parts of Bay, Lower Shabelle, Lower and 
Middle Juba, Galgadud, Toghdeer, Sool, Sanaag, and Bari regions 
received below-average rains. Experts predict the overall cereal crop 
harvest to be below normal due to poor rains in key cropping areas, 
army worm outbreaks, localized flooding, and insufficient agricultural 
inputs. Global Acute Malnutrition rates range from 15 to 24 percent in 
the most affected areas of southern and central Somalia--15 percent is 
generally considered the emergency threshold. Gedo region has some of 
the highest malnutrition rates of 23.4 percent Global Acute 
Malnutrition and 3.7 percent severe acute malnutrition.
    Cyclical drought and years of conflict have decimated pastoralist 
livelihoods, and experts predict emergency humanitarian conditions will 
continue in Southern Somalia through December 2006. I'd like to qualify 
this point. We use the term ``emergency humanitarian conditions'' when 
the lack of an immediate response could
result in loss of life. Our partners tell us that household coping 
mechanisms--particularly in the south, have eroded to the point that it 
will take at least 6 months of ``good'' conditions--sufficient pasture, 
food, water, and rain--to stabilize the situation. For these conditions 
to exist there must be an environment of security. The challenge of 
ensuring these good conditions over the next 6 months is just as great 
as the crisis we've worked so hard to avert. We can't do much to ensure 
that the October rains succeed, but we can work to increase the scope 
of our assistance, and to support efforts to establish a stable, secure 
environment in which recovery may occur.
    I'd like to stress this point: ``Stabilizing the situation'' means 
that the population is no longer at immediate risk, but it does not 
mean a more complete recovery--or a return to ``normal.'' In fact, it 
is not obvious that there is truly the possibility of such a return. 
Traditionally, after a severe loss of animals--like the 50-80 percent 
of herd loss we have witnessed this year--it could take a pastoralist 
community 6 to 7 years to reestablish herds. However, with increasing 
variance in rain cycles, as well as increasing environmental 
degradation, this longer-term recovery is far from certain. In 
addition, ongoing insecurity and lack of rule-of-law perpetuate an 
environment of risk and work against household and community attempts 
at recovery. The desperate need to acquire livestock--in the face of 
severe depletion of household assets--will translate into conflict 
between clans and individuals, and will increase strain on the volatile 
network of alliances that constitutes order in this society. Nowhere 
else in the Horn of Africa are destitution and competition for scarce 
resources more obvious drivers of conflict.
    To improve the lives of Somalia's pastoralists and agropastoralists 
in a sustainable way requires--like in northern Kenya and southern 
Ethiopia--roads, markets, trade . . . and above all else, good 
governance. Somalia is a ways away from being able to absorb this kind 
of assistance--but I feel it is important to emphasize that there is 
nothing short-term about the vulnerability that underlies the current 
humanitarian situation, and that until the space exists to address this 
vulnerability, I believe we will see hunger and security crises 
occurring at ever shorter intervals in Somalia.

                                 ACCESS

    To continue life saving activities, aid agencies must be able to 
ensure delivery of humanitarian assistance to all areas of need, 
regardless of who is in control. Their careful planning and engagement 
in Somalia--both formal and informal--has resulted in tremendous 
success in getting aid to those who need it.
    Early in this response, there were several pirate attacks on food 
shipments coming into the ports and on truck convoys coming over the 
Kenyan border. Neither threat, however, has turned out to have a 
decisive impact on aid. More recently, inland access throughout Somalia 
has improved following the end of fighting between Somali warlords and 
the Union of Islamic Courts (UIC), which was recently renamed the 
Somali Supreme Islamic Courts Council (SSICC). Aid agencies report the 
UIC/SSICC has removed most road blocks, resulting in a more stable 
operating environment and reduced transportation costs.
    Nevertheless, pockets of insecurity remain a major concern. On July 
3, in the Lower Juba region, a World Food Program (WFP) convoy escorted 
by armed men of one militia was attacked by a rival militia, apparently 
unhappy about not being awarded the private security contract to escort 
the convoy. Three people, all combatants, were killed in the skirmish. 
No food was looted, and the convoy was diverted to a nearby village 
until a compromise was reached. This is just one example of the 
complexity and danger of operating in southern Somalia.

                           IMPACT OF CONFLICT

    We know from the past few months that if fighting breaks out again 
in southern Somalia, displacement will be significant--both inside 
Somalia and out of the country. Any internal displacement risks 
destabilizing the fragile process of recovery for most communities in 
the south, and places the lives of the most vulnerable at risk. USAID 
is working closely with our partners to develop contingency plans for 
widespread displacement; however, conflict greatly increases the 
difficulty of negotiating the access upon which the delivery of 
humanitarian assistance depends.

                             USAID STRATEGY

    For now the provision of emergency assistance to vulnerable Somalis 
affected by the recent drought and the evolving conflict will continue 
to be the primary focus of USAID activities. Through Title II support 
to the food distribution programs
implemented by the World Food Program and CARE International, the USG 
is
currently meeting 40-50 percent of all emergency food aid needs in 
Somalia, which currently are near 23,000 MT per month. The recently 
approved supplemental will enable us to maintain this level of support 
over the next critical months. Just as important, we support 
nutritional surveillance throughout the country, and bring specialized 
nutrition interventions and life saving vaccinations to Somali children 
in their communities. Our emergency programs incorporate small-scale 
livelihood activities, and our water interventions are designed to 
build local capacity to manage this scarce resource and to mitigate 
water-related conflicts.
    With development assistance allocations of over $5 million in both 
fiscal year 2005 and fiscal year 2006, our partners have begun 
implementing a number of activities aimed at building civil society, 
mitigating conflict, providing access to drinking water, and improving 
access and quality of basic education through interactive radio 
programming. The recently launched education radio program is already 
having an impact in Somalia. I heard about 8-year-old Najmo who 
couldn't attend school during the recent fighting in Mogadishu. 
However, because of her school's participation in the radio education 
broadcast, she was able to tune into the radio education program and 
continue her lessons from home.
    We will use part of the fiscal year 2006 International Disaster and 
Famine Assistance funds identified for famine prevention and mitigation 
to build on both our emergency and our development assistance funded 
activities--expanding our use of radio, developing community health and 
veterinary services, and helping to rebuild livelihoods.
    My staff is doing everything it can to increase our access to 
reliable and timely information. We continue to work with our partners 
to improve and expand reporting. We are also discussing the 
establishment of an independent monitoring unit capable of identifying 
gaps and weaknesses in our humanitarian response.
    In closing, I appreciate the opportunity to talk to you today about 
our work. As you know, I was not able to visit Somalia during my recent 
trip to the region, but I talked to people at the border in Kenya, and 
I saw the conditions there and in the Somali region of neighboring 
Ethiopia. These are strong people who have suffered much, and they 
appreciate what we are doing for them. We've done our best, and we will 
continue to do our best, to anticipate and deliver the assistance they 
need, to strengthen local capacities and community resilience, and to 
plan for sustainable gains, even as we continue to meet emergency 
needs.
    Thank you again.

    Senator Martinez. Thank you very much. At this time, I'm 
not sure whether you had an opportunity--you gave your opening 
statement already. Did you have your remarks as well? So we'll 
go to questions.
    Senator Martinez. Secretary Frazer, I wanted to ask you 
about the Islamic Courts Union and whether, in fact, they are 
actively pursuing the enforcement of Sharia law in Somalia and 
whether you believe that this is having a serious impact in the 
situation on the ground as well as the character of this group, 
whether they are a monolithic group or whether you believe that 
perhaps they are composed of factions within the group.
    Ms. Frazer. Thank you, Senator. Thank you. The Islamic 
Courts Union are certainly a heterogeneous group and I 
understand that they were developed very much by various clans 
and subclans, often supported by the business leaders trying to 
establish some degree of law and order in basically a failed 
state. The Islamic Courts range in their orientation from 
groups pragmatically trying to assist the public, to 
individuals within the Courts who perhaps have more of a 
political Jihadisy than orientation. So I think there is a 
broad range. Those who simply are providing services, those who 
maybe are Islamicist but not necessarily of a violent nature, 
who have an orientation to establish an Islamic Government to 
those who are actually out to attack Western interests and have 
a Jihadist orientation.
    Senator Martinez. How it is possible for the U.S. 
Government to distinguish who we can work with within these 
groups and who we cannot, who are potential to a--would be a 
part of terrorist organizations and who are those who are a 
force for a more stable and secure future?
    Ms. Frazer. Thank you. We are looking at certainly 
gathering information. Part of my going to the region was to 
consult very closely with the leadership in the African 
countries as well as IGAD and the Arab League. We are also 
consulting with our partners in the International Somalia 
Contact Group. We have information on individuals that we've 
been gathering over years, so we are doing intelligence 
gathering but I think the more basic question is--are we 
reaching out to these Courts. And I think that what is 
important and what we are emphasizing is that the Courts and 
the TFIs reach out and have dialog together, more so than we 
establish direct communication with them. That's not to rule it 
out, but it is not the priority at this point. The priority is 
for the Somali people themselves to come together. And so we, 
with our partners in this International Somalia Contact Group, 
at our very first meeting, called for this dialog to take place 
and as I said, we had dialog on June 22. We hope it will be 
followed up with further accommodation on July 15. So we are 
urging that. What we are trying to do, in terms of our 
strategy, is to allow what we believe is the majority who are 
more of a moderate nature to come forward, whether they remain 
part of the Islamic Courts or not but for the moderates across 
Somali society, in the business community, in civil society, 
moderates within the Islamic Courts itself, to come together 
with the Transitional Federal Institutions to create a stable 
polity for the people and for our, I think, common interests, 
which are obviously to support the people, to make sure that it 
doesn't remain a haven for terrorists and to promote regional 
stability and a stable government.
    Senator Martinez. One last question before I turn it over 
to the distinguished ranking member, is the area of Somaliland 
and we know that they have applied to the African Union for 
recognition and obviously understanding the delicate nature of 
that issue, I wonder if you could tell us what you think the 
ramifications are of ratification or recognition of them as a 
separate entity and they do seem to provide a certain amount of 
stability to the people living within that region. So I just 
wondered if you could comment on that.
    Ms. Frazer. I agree that they have provided stability and 
the United States has engaged with the Somaliland officials, 
including supporting their elections. I met with the foreign 
minister when I was in Djibouti. So we've reached out to the 
officials in Somaliland. I think the first step before we 
should consider U.S. recognition is again for the region to 
decide. I think that Somalilanders must put their case before 
the African Union and then the African Union can make a 
decision and then that decision should be reviewed by the 
United States and internationally. So I would urge us to wait 
to find out what the region itself views in terms of Somaliland 
but in any case----
    Senator Martinez. How long would you wait, though?
    Ms. Frazer. Well, I think that the issue of the timing of 
that is up to the foreign minister and the A.U. They can bring 
the case immediately before the body. There is some concern 
that this could play both ways in terms of the dynamics in 
Southern Somalia. On the one hand, clearly we need to bolster 
and support a region of stability, which is what Somaliland 
represents. On the other hand, there are some who feel that the 
Somalian people may oppose a decision on Somaliland's 
independence at this point and this could further radicalize 
them. But there are any number of these external decisions 
could play either way. It is a very dynamic situation. The 
timing of it is entirely up to the A.U. and the officials in 
Somaliland putting their case before the A.U. They can do that 
at any point.
    Senator Martinez. Senator Feingold.
    Senator Feingold. Chairman, first let me again, in your 
presence, thank you very much for this hearing. It is very kind 
of you to allow me to have this kind of input. Secretary, thank 
you for appearing in front of the committee on short notice. I 
have many questions for you but I also know that you have to go 
to see the secretary, I'm told, on this very issue, shortly. 
So, somehow we have to balance that.
    Let's start with, if you can articulate who has the lead 
role in executing and coordinating the administration's 
strategy that you have talked about? Would you map out for me a 
little bit, who is in charge of each of the elements of the 
strategy and what the coordination mechanisms to manage the 
strategy look like?
    Ms. Frazer. Well, Somalia policy is no different than our 
global foreign policy. Our State Department is indeed a 
diplomatic element. We coordinate our policy through the 
National Security Council, particularly the Africa Policy 
Coordination Committee, which is cochaired by myself and the 
Senior Director for Africa, up through the Deputies Committee, 
chaired by the NSC to the Principles Committee, chaired by, 
obviously, the National Security Advisor, then to the 
President, chairing the National Security Council. So we have a 
coordinating mechanism that includes State, DOD, CIA, Joint 
Staff in an advisory capacity, Treasury, and other relevant 
agencies, depending on the particular issue. That coordination 
body is responsible for developing our Somalia policy.
    Senator Feingold. This relates to your answer, but who 
would you say then, is monitoring whether or not all parts of 
the strategy are being executed effectively? What person or 
persons?
    Ms. Frazer. The Interagency, Africa PCC, has the primary 
responsibility for making sure that all elements of the policy 
are being carried out effectively.
    Senator Feingold. Who is the individual in charge of that?
    Ms. Frazer. Myself, and as I said, I--most PCCs are chaired 
by the Assistant Secretary for the region. I also share that 
with the Senior Director for NSC.
    Senator Feingold. Are there specific objectives and 
benchmarks laid out in the strategy that will help determine 
whether or not progress is being made?
    Ms. Frazer. I think that that is a good question. Clearly, 
we do this as a matter of course on the humanitarian side. On 
the political governance side, it is a bit more difficult. What 
we need to do, as a measure, for example, of success that we 
were putting as a benchmark, was getting the Transitional 
Federal Institutions, the government, into Somalia. It is a 
fairly low benchmark but they went in January. So that, we saw, 
was a major point of progress, on the governance side. Another 
major benchmark will actually get them, at some point, to be in 
Mogadishu. But we think the priority measure right now is to 
broaden the participation of the Transitional Institutions so 
that they can be seen as more legitimate as well as to 
strengthen the administrative capacity.
    Senator Feingold. I don't disagree with some of the 
immediate objectives. But what I'm trying to get at here, and 
you have indicated it is not the easiest thing to do, 
obviously, is are their benchmarks beyond what the next 
priority is? And are there timelines, at least a sense of plan 
as to ideally what we want to achieve. In other words, I'm not 
sure it is efficient just to say the next thing we have to do 
is to get the transitional government in there. Obviously, that 
was important. What we need is a public plan so that people can 
see what the overall picture is. I'm having some concern that 
what I'm getting from you, that that really hasn't been done 
yet.
    Ms. Frazer. No, I think that clearly, our plan is--this is 
a Transitional Federal Institution, so the plan is 20-10 that 
we have actual elective government, because that is when the 
mandate of the TFIs expire. So it is not unlike Liberia, where 
we had a transitional government but we had a plan and a date 
in which we needed legitimate elections to take place. What we 
have tried to do--and this is I think, perhaps some of the 
frustration is that we've tried to push the Somalia people to 
come together. There was even disagreement, as you know, within 
the TFIs. We think we are beyond that. Now we need to get the 
TFIs with the Islamic Courts but the instate clearly is this is 
a transitional government, it needs to be an elected, 
democratic government.
    Senator Feingold. Well, and I respect the stating of the 
end goal and the time frame. What I am suggesting and we'll 
pursue this more later--you can obviously tell I'll be staying 
involved in this, is the need for the benchmarks and the 
timelines within that context, leading to that date, that will 
show me and others that there is a comprehensive strategy. Many 
of us believe that a special envoy or senior-level State 
Department official should be appointed to manage the 
development and execution of a comprehensive strategy. We've 
talked about that, to be able to be a liaison with the 
international community and work with Somalia's regional 
neighbors to establish stability there. We spoke about this 
even before the recent, very disturbing events. This person 
could also serve as a center of gravity in all Somalia-related 
policy issues, much like we've had in the past for Sudan and 
Haiti and other places. Is there any reason why you wouldn't 
support the creation of such a position now, given the 
increasing instability and tensions in the region?
    Ms. Frazer. Senator Feingold, I think that our foreign 
policy system works well with the officials that are in place 
now. I know that there is often, when there are these types of 
issues globally, and call for an envoy. But we have assistant 
secretaries, regional assistant secretaries, undersecretaries, 
deputy secretaries, secretaries, and the President himself, who 
carry out our diplomacy, who are our envoys. More importantly, 
I think, on the ground, we need to look at how we carry out the 
operations. It has been carried out by our Embassy in Nairobi. 
I think that they are doing a great job. I wouldn't say that we 
are opposed to any envoy or senior-level person, but that 
responsibility resides in the officials in our foreign policy 
process. The problem in Somalia, obviously, is that whereas we 
would normally have an embassy base, we don't have an embassy 
there and more importantly, because of the insecurity in 
Somalia, it is more difficult to actually go there. An envoy 
who is sort of circulating around European capitals, I don't 
see as any value added. What we need is the ability to get into 
Somalia, to engage directly on the ground there and to beef up 
our capacity there, not just circulating.
    Senator Feingold. Madam Secretary, I appreciate your 
response and I'm going to defer to the chairman in a second. I 
just want to respond to that. I do feel there is some movement 
in your response. I think you were more opposed to the notion 
when we last spoke. I heard you say you didn't necessarily 
oppose it. I would urge you to consider supporting it. Under 
this administration, Ambassador Danforth did what I think was 
an admirable job as a special envoy to help achieve the peace 
between the North and South in Sudan. I agree with you that it 
is a general rule you use the people in place. But we are 
overwhelmed. I mean, Ambassador Crumpton told me that we've 
only had one full-time person working in Somalia, operating out 
of Kenya. This is a country of enormous significance to us, 
enormous significance to the history of the fight against 
terrorism and I would urge you and others to consider the value 
of having somebody who would be fully consumed by the goal of 
trying to advance this issue. Mr. Chairman, thank you for the 
time.
    Senator Martinez. Thank you. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. I want to 
actually thank my colleague, first, Mr. Chairman, for holding 
this hearing and then I want to associate myself with the words 
of my colleague from Wisconsin on this issue. I can't tell you 
that a Special Envoy is the answer but we don't have folks on 
the ground. We--and I guess that's the question. Were we 
surprised by the strengths of the ICU? Did we have intelligence 
to kind of sort out how this was playing out or did their 
strength come as a surprise to us?
    Ms. Frazer. Senator, I'm not sure how strong the ICU are. 
As I said, the situation in Somalia is very dynamic. It is 
constantly changing. What we know is that they had--they had 
gained popular support because of their delivery of service and 
because of providing some law and order, based in the clans 
themselves. The ability for them to move out of their clans and 
unite into something broader is still an unanswered question. 
The situation is very dynamic so I'm not certain how much hold 
they actually have in Mogadishu. What we're trying to urge is 
for them to take that positive--that positive disposition to 
work with the TFIs but there is concern about the imposition of 
extremists, Sharia law, in which you can't watch the World Cup 
and other such developments. So, this is a very dynamic entity 
at this point. Islamic Courts based in the subplans had more of 
a presence, something beyond that we're not sure.
    Senator Coleman. And part of the problem is again, is we're 
not getting the information that we need. I would suggest, as 
you are well aware, it's not just the imposition, sure, but the 
people who are some of the key leaders, Hassan Dahir Aweys--
these are identified terrorists who are at the center of a 
group that now has significant control in Mogadishu. I would 
suggest and one of my concerns has been our focus and the 
amount of aid. And I understand, who are we're going to give 
money to and if you look, periodically, where we've been in 
terms of aid to Somalia, it has development, it has been 
decreasing. If it were not for the intervention of some of my 
colleagues in this committee, I think it would be significantly 
decreased. We pushed to say that we need more aid. I was 
interested hearing Director Hess's figures. But that is food 
aid. That $90 million--we're talking a lot about, but aside 
from food aid, there is a development aid. If anything, it 
seems that we've had less of a focus on what is a critical 
region and as you indicated in your own testimony, we run the 
risk of becoming centers for terrorism when there is 
instability in the area and Somalia, right now, it's clear that 
that's a huge concern. My concern is and I think my question 
is, does Somalia have our attention now? Are you coming before 
this committee and saying they have our attention? We are 
focusing on the situation. We have committed to doing those 
things that need to be done, working with others, working with 
our council and others, to try to provide stability, to try to 
deal in a stronger way, with the humanitarian crisis that we've 
done in the past?
    Ms. Frazer. Yes. Yes, Senator.
    Senator Coleman. I would again urge you to reflect upon the 
Special Council issue and I just--I'm not sure if there are 
answers to the questions I have. That's my frustration in 
looking at Somalia and I'm just not sure where we get them, 
absent people, absent folks on the ground. Director Hess, in 
terms of the humanitarian crisis there, what else can Congress 
be doing, what can we be doing to assist you and others in 
making sure that the right thing is being done?
    Mr. Hess. That is obviously a good question. Certainly on 
the humanitarian side, we have a number of people focused on 
Somalia directly. They work out of Nairobi where they are--we 
have a team that focuses primarily and solely on Somalia 
because it is such a big issue and our partners there, most of 
whom operate out of Nairobi as well. When you look at the major 
non-governmental organizations and the U.N. organizations, 
while they can go in and out of Somalia, their headquarters are 
in Nairobi and that's why we have a team there that are focused 
on humanitarian relief. When you mentioned our money, the over 
$90 million we have spent so far, you're right. About $79-$80 
million of that is going for food aid because it costs a lot to 
get the food in there. However, we've also spent about $10 
million in programs like education, conflict mitigation--I 
visited a group in the Mandara markets in northeast Kenya where 
they were working on conflict mitigation and we do that, 
looking at areas of extremism and areas of conflict. The 
education is done, interestingly enough, through radio 
broadcasts and that helped school children even in Mogadishu 
who couldn't get to school. We were able to broadcast 
educational programs so that they could still continue to take 
their classes even though they were at home. We've done some 
working on building civil societies and while we work on the 
humanitarian relief, we work on local organizations and 
institutions because this is part of the capacity building I 
was referring to. If we continue to provide the aid and we 
don't build the local capacity, we're going to be there forever 
and that's not what we're about. Even in Gedo, we have built 
local humanitarian organizations and networks, specifically in 
nutritional and health care that are able to get relief out. So 
we're working in a number of areas.
    Senator Coleman. And my concern, Mr. Hess, is that aside 
from the food aid, I have not seen the commitment of resources 
to build what has to be built on the ground in order to have a 
long-term effect. I just don't see it. I would suggest that--we 
saw the tragic consequences of the Taliban in Afghanistan and 
we are perilously--that is a perilous situation in Somalia 
right now, that if not fully addressed, I think, could have 
very tragic consequences in terms of our effort to fight global 
terrorism.
    Thank you, Mr. Chairman.
    Senator Martinez. Thank you, Senator. Do you have 
additional questions for the panel? I'm going to ask a couple 
of them myself. Mr. Hess, one of the things that is obvious is 
with a lack of a central government, it seems like a very 
difficult task in getting aid in and obviously we're not on the 
ground. How are we doing that? How is that happening? And how 
much have we been able to put on the ground?
    Mr. Hess. When you talk about the food, it is 121,000 tons 
just this year. We need to get around 23,000 metric tons a 
month into Somalia, the international community does. And 
that's what WFP's appeal calls for. We use a number of 
mechanisms to do that, CARE and WFP are our primary 
implementing partners. CARE gets about 7,000 metric tons a 
month into the country and they do that through Mombassa, up 
the roads into Mandara, and then across the borders into Gedo. 
They mainly have the Gedo region and that corner of Somalia. 
WFP covers the rest of the country, which is primarily south 
central right now. They go into the ports at Alem and Areka, 
where they are able to ship food in through those ports and 
then distribute it through local networks out to the regions 
where they have the most affected. We will occasionally use 
other NGOs and other partners, but those are the primary 
partners through whom we distribute the food. The last month, 
we had 17,000 metric tons of food that went into the country. 
Our other implementing partners include Catholic Relief 
Services, World Vision International, who do our nutrition 
programs, water, sanitation. We also work through UNICEF to do 
educational programs, water sanitation, and nutritional 
programs as well. It is mainly through our implementing 
partners that we are able to do these functions. They have very 
good reporting systems, interestingly enough. You have better 
cell phone conductivity in Somalia than you do in any other 
region in the Horn or any part of the Horn. So we get pretty 
good reporting out of there. They have very good Internet 
conductivity as well. So we're getting good information flow 
from our partners there and we're increasing that as we can.
    Senator Martinez. Senator Feingold.
    Senator Feingold. Chairman, thank you. Mr. Hess, has USAID 
contributed to the strategy that Secretary Frazer discussed as 
head of the democracy conflict and humanitarian assistance 
bureau, USA Idea, have you been part of the development or the 
strategy?
    Mr. Hess. Absolutely, sir. We have a team that meets on the 
working group all the time.
    Senator Feingold. As I understand it, USA Idea funded a few 
important studies on Somalian policy and planning in 2005. 
These studies include policy recommendations, conflict 
management strategies, regional considerations, analyses of key 
sectors and needed assistance, and a range of other important 
things. Were these studies distributed throughout the U.S. 
Government?
    Mr. Hess. Yes, sir. We have distributed those pretty widely 
and I ought to check back and make sure they are on our Web 
site but I know that we distributed them pretty widely. I have 
personally given them to General Abazad, at SIN COM so that SIN 
COM and our partners down there have them. I also gave them to 
the commander of CTF ORH so that they have it as well. But we 
work through a lot of--because it has to be a team effort.
    Senator Feingold. Do you know if this work has been taken 
into account by the State Department?
    Mr. Hess. Yes, sir.
    Senator Feingold. You do know that they have taken it into 
account?
    Mr. Hess. Actually, I can't--I'll have to check on that.
    Senator Feingold. Well----
    Mr. Hess. I'll check with Jendayi.
    Senator Feingold [continuing]. Well, I'll let her answer 
but I would think that if USAID was funding a study on 
Political Economic Regional and Social Issues in Somalia, the 
State would want to be reviewing that. Have you had a chance to 
review this?
    Ms. Frazer. No, no.
    Senator Feingold. Well, let's try to link that up.
    Ms. Frazer. Yes, certainly.
    Senator Feingold. That's one thing we could do. Thank you, 
Mr. Chairman.
    Senator Martinez. Senator Coleman.
    Senator Coleman. Just one, just a line of questioning. 
There was a lot of concern, a lot of questions raised about 
U.S. support of the warlords in the battle with the ICU. I 
guess I'd ask you, Secretary Frazer, what message can I 
communicate to my Somali constituents back in Minnesota, to 
reassure them that the United States is working toward kind of 
an overall resolution of the situation, peaceful, democratic 
resolution in Somalia?
    Ms. Frazer. Senator, many of your constituents call me on a 
daily basis. [Laughter.]
    So they are part of helping to develop our understanding of 
what is going on and how we should approach this issue. So I 
think that you can assure them that we are fully engaged and 
we've heard their voice to try to allow space for the Somali 
people themselves to emerge because they are--what they say to 
us is that extremists don't have a place in Somaliland. It is 
not--it is counter to their culture there. It is counter to 
even the expression and the practice of Islam. So we have taken 
that into consideration in developing our strategy. I think 
that you can let them know that we do hear them; we hear them 
very clearly and very loudly. We are working, trying to, as you 
say, bring about that peace and stability and to support the 
Somali people.
    I just wanted to say, Senator Feingold, there are many 
studies that my team at the State Department works on and are 
part of that I may not have read immediately. So when I said 
that I personally hadn't read it, I was not, by that, saying 
that the African Bureau at the State Department has not been 
involved in this process. It is just that it hasn't hit my desk 
at this point.
    Senator Coleman. Thank you, Madam Secretary, thank you, 
Chairman.
    Senator Martinez. Thank you both very much and I think at 
this time we will excuse the first panel and thank you both 
very, very much for your appearance here today, on short notice 
and also for the work that you are doing in these very, very 
difficult circumstances.
    Ms. Frazer. Thank you, Mr. Chairman.
    Mr. Hess. Thank you, Mr. Chairman.
    Senator Martinez. Thank you very much.

    [Recess]

    Senator Martinez. Let me now welcome our second panel this 
afternoon and thank all of them for being here and 
participating in this very important hearing. We have the 
Honorable David Shinn, adjunct professor at the Elliot School 
of International Affairs at the George Washington University, 
here in Washington. We are also very pleased to welcome Dr. 
Andre Le Sage, the assistant professor and academic chair for 
Terrorism and Counterterrorism, Africa Center for Strategic 
Studies at the National
Defense University in Washington, and Steve Morrison, director, 
Africa Program for the Center for Strategic International 
Studies, here again, in Washington. So we welcome all of you 
and would like for you, at this time, to feel free to make your 
opening statements, understanding that if you want to make a 
fuller statement part of the record and summarize your remarks, 
that certainly would be acceptable. We'll begin with you, Mr. 
Morrison.

  STATEMENT OF J. STEPHEN MORRISON, DIRECTOR, AFRICA PROGRAM, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Morrison. Thank you very much, Senator Martinez and 
Senator Feingold, and thank you for holding this very timely 
hearing, and I appreciate the opportunity to be here today with 
you. I have concentrated my remarks deliberately on the 
question of what are the predicaments or the constraints that 
are at play today, with respect to the United States policy on 
Somalia and what are the immediate, concrete actions that need 
to be taken to move us forward. Let me just summarize very 
briefly, and if I may submit the full report to the record, I 
would appreciate it.
    Senator Martinez. It will be accepted as part of the 
record.
    Mr. Morrison. There are several key constraints that we 
need to keep in mind in looking at the question of how we would 
devise an effective U.S. policy. The first, of course, is that 
there are very serious threats in Somalia in the form of the 
three high-value targets that we've identified there and these 
cannot be downgraded or ignored. It requires us to communicate 
our demand directly to the Counsel of Islamic Courts as to what 
we expect of them. I'm disturbed at the thought that we would 
eliminate direct engagement and communications to the CIC, 
particularly given the gravity of this particular threat. 
Second, we have to admit to ourselves that by contrast with 
Afghanistan or other conflicts, there is no realistic option 
for introducing an external force, military force into Somalia 
at the moment that would shape the security situation on the 
ground. I can explain that in greater detail but we have to 
admit to ourselves that that option simply does not exist today 
and is not likely to exist in the near future. Third, it is not 
realistic for us to engage directly on a consistent basis 
diplomatically inside Somalia, however, we should be putting a 
focus on building up our capacities in the immediate 
surrounding region and giving that greatest emphasis. Fourth, 
most importantly, I would argue, the United States is operating 
from a tremendous deficit on the basis of its 12-year absence 
from Somalia. That is a deficit in terms of policy, 
institutional capacities, and credibility. We have no full-
time, senior-level leadership in Washington or in the region 
focused on directing policy. We have no serious funding to 
leverage our aims, other than the very important humanitarian 
flows that we heard about from Michael Hess. At a popular level 
among Somali, is we suffer from a lack of credibility and 
support and within the United States domestically, there is 
only a weak constituency for an enlarged engagement and there 
is a persistent negative constituency that we need to deal 
with. We have an emergent policy that Assistant Secretary 
Frazer has outlined but no functioning interagency process and 
no implementation plan. Rather, we have persistent fissures. A 
fifth constraint is the wild card of Ethiopian military. We 
know there is a strong possibility of the military intervening 
unilaterally on a significant scale, which could alter the 
situation on the ground immediately. Sixth, we have no reliable 
internal partners. The TFG is weak and ineffective. The Islamic 
Courts are in an uncertain state and are preoccupied with 
vanquishing the warlords. My last constraint is really the one 
focused on those powers that are sustaining the warlords and 
the Islamic Courts: Saudi Arabia, Yemen, the Emirates, Eritrea, 
and potentially support that could be derived from Egypt. We do 
not have a strategy for engaging them effectively in support of 
our goals. The Contact Group is a welcome step but does not 
have full regional membership yet. We need to, in my 
estimation, focus on a couple of immediate steps, grounded in 
realism of caution and patience. The first thing we need to do 
is really test and engage directly the Islamic Courts in the 
TFG, communicating clearly to them what we expect from them in 
terms of concrete actions and what we are prepared to do 
positively and negatively in response. We should not--we should 
take special care neither to embrace nor to reject out of hand 
our dialog with these two entities. The second is, we need to 
create, on a crash basis, United States capacity on Somalia 
that does not exist today. We need a senior-level figure to 
head our efforts. We need a United States-Somalia policy group 
centered in Kenya. We need an expert advisory group and we need 
a strategy and an implementation plan and money. These are all 
absent today. Third, this U.N. Security Council can do much 
more than it has done up to now in tightening enforcement of 
the existing arms sanctions. We can introduce an international 
maritime initiative and we can encourage Secretary General Kofi 
Annan to become more directly engaged on a sustained, high-
level, senior basis. We can intensify United States bilateral 
pressures on those parties that I identified earlier: Saudi 
Arabia, Yemen, the Emirates, Egypt, Eritrea, to curb material 
support into the CIC and the warlords, and we can work to 
enlarge the Contact Group toward these ends.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Morrison follows:]

 Prepared Statement of J. Stephen Morrison, Director, Africa Program, 
     Center for Strategic and International Studies, Washington, DC

    Senator Martinez, Africa subcommittee chairman, and Senator 
Feingold, ranking minority, I commend you both for holding this timely 
hearing, and I thank you for the opportunity to contribute to the 
discussions here today.
    I have chosen to concentrate my brief remarks here on the specific 
acute predicaments that United States policy makers face with respect 
to Somalia and immediate concrete options for moving forward. I hope 
they are helpful. Ambassador David Shinn has provided ample background 
on Somalia's history and recent developments which I will not 
duplicate.
    Somalia has surprised and exasperated us with the sudden, recent 
turn of events. This happened earlier in 1993, has now happened again, 
and calls for an exceptional response. By contrast with the early 
1990s, Somalia cannot today be simply ignored and forgotten. Realities 
in the Horn of Africa and the world have changed too profoundly since 
9/11 to permit us simply to change the subject or follow a business-as-
usual approach. The question this then begs: What realistically can be 
done by the United States and others under present circumstances? The 
short answer is we have to confront the multiple acute constraints at 
play and carry U.S. diplomacy to a higher level, grounded in realism 
and patience; a determination to create new U.S. capacities on a crash 
basis; and a commitment to strengthen multilateral bodies and 
systematically test the Somalis.
    From 1994 to 2001, the United States was content to allow Somalia 
to disappear into oblivion, following the tragic deaths of 18 rangers 
in Mogadishu in October 1993. After 9/11, Somalia only resurfaced 
marginally in official United States consciousness, confined to the 
shadows of the global war on terror. There was no U.S. policy of any 
consequence. Occasional suggestions that the United States should 
enlarge its engagement beyond nominal containment of the terror threat 
were rejected out of hand. That was certainly the case when we 
advocated, at Senator Feingold's suggestion, heightened United States 
engagement on Somalia as part of the African Policy Advisory Committee 
report, commissioned by the United States Congress and issued to then-
Secretary of State Colin Powell in July 2004.
    Today, quite remarkably, Somalia suddenly again demands high-level 
United States foreign policy attention. The stakes for the United 
States have become conspicuously larger, following the embarrassing 
setback in May when an alliance of Somali warlords backed by the United 
States in its counterterrorism efforts was vanquished by Islamist 
militias. That failure is now compounded by mounting concern both for 
stability within the Horn and the humanitarian toll borne by Somali 
citizens.
    The United States has been caught by surprise, ill-prepared for the 
multiple quandaries that Somalia now poses.

                              CONSTRAINTS

    Several acute constraints are at play.
    First, the three ``high value targets'' thought to be in Somalia, 
Fazul Abdullah Mohammed, Saleh Ali Salih Nabhan, and Abu Taha al-
Sudani, are serious threats with a proven track record of doing harm to 
United States national interests. They cannot be downplayed or ignored. 
Dealing with them will remain a central U.S. policy concern, and that 
will require communicating our demands directly to the Council of 
Islamic Courts (CIC). But that will also likely require dealing with 
murky outcomes. And at some point it may be necessary but difficult to 
verify if or when these terrorists are no longer based in Somalia.
    Second, there is at present no realistic option for an external 
force to shape the security situation on the ground inside Somalia. 
That is because there is no stomach on the part of the United States, 
any other major power, or any international body to introduce armed 
troops into Somalia. Moreover, there is no feasible proxy option, nor a 
feasible option to invest in the creation of a new force under the 
auspices, for instance, of the Transitional Federal Government.
    Third, while the United States might be able, eventually, to engage 
diplomatically inside Somalia on occasion, it is not realistic or 
advisable for the United States to establish a presence on the ground 
in Somalia anytime soon. For now, we are confined to operating 
diplomatically from the outside, on the margins. That does not rule 
out, however, that we can have significant impact from within the 
surrounding region, if we choose to make that kind of commitment.
    Fourth, the United States operates from a tremendous deficit, in 
terms of policy, institutional capacities, and credibility. Disengaged 
for 12 years, it lacks real-time knowledge and relationships. It has no 
full-time senior-level leadership in Washington or the region charged 
with directing policy, and has no serious funding to leverage its aims. 
At a popular level among Somalis, the United States lacks credibility 
and support. At home, the United States domestic constituency pressing 
affirmatively for enlarged engagement in Somalia is weak. The 
constituency, arguing the opposite based on the negative experiences of 
1993-94, remains active.
    While the outline of a U.S. policy has recently become clearer, the 
three-pronged focus on counterterrorism, governance, and humanitarian 
need, outlined by Assistant Secretary Frazer--no credible implementing 
strategy has yet been put in place, and no functioning interagency 
process exists to back the formulation and execution of a strategy. 
Rather, there are persistent internal fissures within the 
administration that pull policy in divergent directions and impede a 
coherent response.
    Fifth, the Ethiopian military is a wild card which neither the 
United States nor any other power controls. If the patterns of the mid-
1990s apply today, 10 years hence, the Ethiopians could very well 
intervene unilaterally on a significant scale and rearrange the Somalia 
playing field, for better or for worse.
    Sixth, there are no reliable internal partners. The Transitional 
Federal Government (TFG) is weak and ineffective, the leadership and 
the intentions of the Council of Islamic Courts (CIC) are uncertain, 
and for now the latter remains preoccupied with vanquishing the 
warlords and consolidating its control of the ground in southern 
Somalia.
    Seventh, we do not yet have an effective strategy for engaging 
Saudi Arabia, Yemen, the Emirates, Egypt, and Eritrea to staunch 
financial, materiel, and political support to the CIC and opposing 
warlords. U.N. Security Council sanctions have up to now been 
ineffectual. The recent revival of the Somalia Contact Group is a 
welcome step, but that body does not yet have the full regional 
membership it requires, and is only just beginning to focus on how to 
bring effective external pressures upon the CIC, TFG, and opposing 
warlords. (Britain, Sweden, Italy, Tanzania, and the European Union 
joined the United States and Norway in the Contact Group. Kenya, which 
assisted in forming the TFG, was not invited, but the African Union, 
the Arab League, the East African Intergovernmental Authority on 
Development, and the United Nations were invited as observers.)

                           DIVERGENT FUTURES

    There are now two divergent narratives of where Somalia may be 
heading. Each calls for a fundamentally different U.S. approach. Yet we 
are called upon to prepare simultaneously for both.
    Since the bungled U.S. effort to support the warlord coalition 
backfired in May, there has emerged the possibility that a nascent 
radical Islamist regime might consolidate its control under the control 
of Hassan Dahir Aweys. Further, this regime might continue to harbor 
``high value'' terrorists and, in addition, invite yet another 
Ethiopian putsch that would threaten to scatter the parties and push 
the situation back into violent chaos. With this scenario looming, the 
United States has felt compelled to announce it cannot engage in direct 
dialog with the CIC. The U.S. posture has instead concentrated on 
containment and threat.
    Side by side with this scenario, there has emerged the opposing, 
benign possibility, favored by the European Union envoy, Mario 
Raffaelli, and regional governments, that the Islamic Courts might 
break the power of predatory warlords and negotiate a pragmatic 
transitional governing arrangement with the TFG, under the auspices of 
the Sudanese Government. That presumes the ``high value'' terrorists 
are quietly spirited out of the country and that the CIC leadership 
concludes it is in its best interest to compromise with a transitional 
government that has no capacity, administratively or militarily, and 
low legitimacy.

                              U.S. POLICY

    For the Bush administration, the current scramble to devise an 
effective policy toward Somalia involves an uncomfortable reunion with 
the same failed state that dealt the Clinton administration its first 
major foreign policy defeat. Given the constraints and uncertainties 
outlined above, it is clear that any effective U.S. policy needs, above 
all, to be grounded in realism, caution, and patience; to test the CIC 
and TFG directly; to give priority to strengthening and operating 
predominantly through multilateral channels; and, perhaps most 
important for our discussions here today, to put a premium on creating 
elementary U.S. capacities (now absent) on a crash basis. The latter 
will be essential, if the United States is to better understand and 
shape Somalia and its environs, and if it is to see United States 
credibility enhanced.
    Critical concrete next steps include:
    (1) Test-engage the CIC and TFG: There is an immediate need to 
communicate, directly and clearly, to both the CIS and TFG what we need 
to see from them, in terms of concrete actions, and what we are 
prepared to do, positively and negatively, in response. The United 
States has to take special care neither to embrace nor to reject out of 
hand these two entities. With the CIC, we need to be very clear on our 
security demands.
    (2) Strengthen U.S. capacity: Appoint a senior-level figure to head 
U.S. efforts; create an adequately staffed United States-Somali policy 
group, based in Kenya; create an independent outside expert advisory 
group; accelerate interagency efforts to formulate a flexible U.S. 
strategy that mitigates tensions between the Department of State and 
U.S. intelligence operations; assemble a robust emergency package of 
bilateral and multilateral assistance to support expanded international 
humanitarian operations and transitional reconstruction of critical 
infrastructure in Somalia, including within Somaliland.
    (3) Step up engagement by the U.N. Security Council and the U.N. 
Secretary General: Press within the U.N. Security Council for a 
tightening of the enforcement of existing arms sanctions on Somalia. As 
part of that effort, press for an international maritime initiative to 
combat piracy and enhance maritime security. Encourage the U.N. 
Secretary General to become more directly engaged on Somalia at a 
sustained, senior level.
    (4) Intensify United States bilateral pressures and expand the 
Somalia Contact Group: The United States needs to press Ethiopia to 
join a broader international dialog on Somalia; at the same time, the 
United States needs to engage directly and more aggressively with Saudi 
Arabia, Yemen, the Emirates, Egypt, and Eritrea to curb materiel and 
financial support to the CIC and opposing warlords. It also needs to 
take steps to incorporate these states into the activities of the 
Somalia Contact Group.
    In conclusion, the United States faces a score of formidable 
barriers to an effective approach to Somalia, in the midst of a rapidly 
changing situation. But given what is at stake, for United States 
national interests, Somalia, and its neighbors, and given the potential 
the United States possesses to help avert worst outcomes and move 
Somalia toward a better future, it is critical that the United States 
strive to do more, smarter, and at a higher level of effort.
    Thank you for the opportunity to present here today.

    Senator Martinez. Thank you, sir, for your comments.
    Dr. Le Sage.

    STATEMENT OF DR. ANDRE LE SAGE, ASSISTANT PROFESSOR AND 
           ACADEMIC CHAIR FOR TERRORISM AND COUNTER-
 TERRORISM, THE AFRICA CENTER FOR STRATEGIC STUDIES, NATIONAL 
               DEFENSE UNIVERSITY, WASHINGTON, DC

    Dr. Le Sage. Mr. Chairman, Senator Feingold, thank you for 
the invitation to speak at this hearing. Let me say at the 
outset that my remarks will reflect my views as an academic and 
do not reflect any U.S. Government policy.
    Somalia is critical to United States national security 
interests in two respects: First, it has become a bastion for 
terrorists to strike against American interests in East Africa. 
Second, the Somalia crisis continues to destabilize neighboring 
states such as Kenya, and may draw competing regional powers 
such as Ethiopia and Eritrea into a proxy war. These concerns 
are obviously in addition to the humanitarian and governance 
crises that undermine the future of the Somali people. I wish 
to use my remarks to briefly address three critical areas where 
I believe an accurate situation assessment is required.
    First, terrorist threats in Somalia. It is now regularly 
stated that a limited number of al-Qaeda militants are using 
Somalia as a rear base for their East Africa operations. These 
are wanted terrorists responsible for the 1998 embassy 
bombings, the 2002 attacks near Mombasa and for subsequent 
unrealized plots against other American targets. However, the 
threat to regional security has broadened beyond the foreign 
al-Qaeda operatives. The terrorist cell in Mogadishu only 
functions there with assistance from a network of Somalia 
Jihadis, associated with the old Al-Itihad movement and 
militant leaders, such as Hassan Dahir Awyes, Aden Hashi Ayro, 
Abdi Godane, and Ibrahim Haji Jama. On their own, this group is 
responsible for multiple attacks targeting Somali peace 
activists and secular leaders, as well as foreign aid workers. 
A few years ago, this group may have been so inexperienced or 
opportunistic that removing the al-Qaeda elements from Somalia 
would have led the local Jihadis to disband. However, following 
years of cooperation, training, and funding, it is now a near 
certainty that even if left to their own devices, this group 
would continue to pose a threat, both inside Somalia and across 
the subregion.
    Second, the nature of the Supreme Islamic Courts Council. 
Despite this terrorist presence, the Islamic Courts operating 
in Somalia today are not synonymous with al-Qaeda. They are a 
complex Somali phenomenon and do not currently represent a 
Taliban style of government. The new Courts Council is composed 
of over a dozen local clan-based courts that have garnered 
public support by provided a modicum of security on the streets 
of Mogadishu. Although a known militant is now in charge of one 
arm of the Islamic Courts Council, he is not in charge of its 
executive arm led by a more moderate preacher or its 88-member 
parliament. Those in the local courts are composed of mixed 
interests, including conservative Sheikhs who may have rejected 
Sufist tradition but do not support terrorism. Further, the 
Islamic Courts are not on the verge of overtaking all of 
Somalia. They derive entirely from a single Somali clan, the 
Hawiye and particular subclans within it, such as the Habar 
Gidir, which feel underrepresented in the Transitional Federal 
Government or TFG. The dominance of these particular groups 
makes many Somalis highly suspicious of the Islamic Courts and 
it inhibits them from making aggressive moves outside of their 
current territory, for instance, toward the TFG's temporary 
capital in Bidoa, a Rahanweyn clan town.
    The extent of Islamic Courts' territorial control may 
appear more significant on a map than it is in practice. In 
fact, they do not even control all Hawiye areas. Neither of the 
authorities in the strategic towns of Merka or Kismaayo has 
brought their administrations under the Court's authority, nor 
have they tried to create Islamic administrations of their own.
    Finally, although the Islamic Courts came to power with a 
degree of public support, there is no certainty that they will 
succeed in governing. It remains to be seen how the Courts will 
confront persistent Somali challenges of internal leadership 
feuds, clan disputes over land, demands that social services be 
provided, and that the capital's main airport and seaport be 
reopened. Draconian legislation to prohibit so-called un-
Islamic practices will also breed dissent.
    Third, prospects for the Transitional Federal Government or 
TFG. In response to the rise of the Islamic Courts, many, 
particularly America's partners from Europe and IGAD view 
increasing material support for the TFG as the best response. 
However, I believe that this view is overoptimistic on a number 
of counts. The TFG is a remarkably weak entity. Its main 
strengths are the Transitional Federal Charter, which provides 
a broad road map for establishing a permanent, legitimate 
government and the Transitional Federal Parliament, which is a 
relatively representative cross-clan body. Nonetheless, the TFG 
currently controls and administers no territory. Even in 
Baidoa, it remains the guest of a faction of the Rahanweyn 
Resistance Army. Efforts to establish district councils outside 
Baidoa have proven highly controversial. The TFG's executive 
branch cannot achieve a quorum for cabinet meetings and has no 
staff. The TFG's judiciary exists in name only and it is highly 
unclear where police forces, once they have been trained, can 
or will be deployed. As for the military, no serious integrated 
or disciplined force exists. Rather, individual leaders remain 
in charge of competing subclan-based militia. As a result, 
caution is needed before relying too heavily on the TFG. While 
the transitional process elaborated in the charter provides a 
useful framework for advancing dialog and negotiations, it is 
unclear that the TFG will be able to garner control of much of 
the country in the coming years or months. In terms of 
counterterrorism in particular, the TFG will be hamstrung over 
the short- and medium-term unless some of its members can 
return to Mogadishu to establish information and law 
enforcement capacities independently of the Islamic Courts.
    In conclusion, any government or international organization 
dealing with Somalia should finally balance its approach. On 
the one hand, the TFG must be supported to use dialog and 
negotiation to conclude the process of peace building. Yet 
aggressive efforts to support the TFG, for instance, lifting 
the U.N. arms embargo, deploying an A.U. or IGAD peacekeeping 
force, or unilateral Ethiopian military intervention are 
already a source of dispute within the TFG and will likely do 
far more harm than good. On the other hand, the Islamic Courts 
and their leaders must come under consistent pressure to 
disassociate themselves from terrorism. However, actions that 
are overtly provocative will radicalize the Courts, empower the 
hardliners in their midst, and give them legitimacy in the eyes 
of the Somali public. They would also close any existing 
opportunities to attract moderate, nonviolent Islamic leaders 
away from the militants. Achieving this balance will not be 
easy and it will take time. It will require sustained, well-
informed and well-resourced engagement in order to achieve a 
solution to the Somalia crisis before al-Qaeda can use the 
country as a rear base for another terrorist attack. Mr. 
Chairman, that concludes my opening remarks. I look forward to 
your questions.
    Senator Martinez. Thank you very much, sir. I appreciate 
your sobering remarks. Mr. Shinn, we'll hear from you now, sir. 
Thank you very much.

   STATEMENT OF HON. DAVID H. SHINN, ADJUNCT PROFESSOR, THE 
ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
                   UNIVERSITY, WASHINGTON, DC

    Mr. Le Sage. Thank you Mr. Chairman and Senator Feingold. I 
would also like to associate myself with the remarks that were 
made by my two predecessors. I have no significant substantive 
differences with anything they said. As far as the area that we 
are talking about, if I could just lay out a couple of 
assumptions about Somalia before beginning and I will discuss 
both Somaliland and Somalia, primarily Somalia.
    As far as the government is concerned, I agree fully with 
what Andre Le Sage just said, in terms of the Transitional 
Federal Government being exceedingly weak. Nevertheless it is 
the only game in town from the standpoint of a legitimate 
government. I also agree with his comments about the limited 
geographical impact, so far, of the Council of Islamic Courts. 
They basically are still a Hawiye organization and there still 
are some areas of Hawiye territory where they have not taken 
full control.
    Since this committee held a hearing on this topic more than 
4 years ago, the U.S. Government has marginally improved its 
understanding of what is going on in Somalia, but the 
information remains highly flawed as of this day.
    On the issue of terrorist links, the most serious problem 
that the United States has dealt with over the years, which 
actually precedes 9/11, are the role that Al-Ittihad A 
Islamiya, also known as Unity of Islam, has played. That 
organization, by and large, has become dormant. But it was 
highly active in the mid- and even the late-1990s in carrying 
out terrorist acts in Ethiopia, and conducted some nefarious 
activities inside Somalia itself. It probably has had links of 
some nature with al-Qaeda. What the nature is, I don't think we 
have a really good understanding. The belief is that terrorists 
have used Somalia to carry out acts in Kenya, both the United 
States Embassy bombings in 1998 and against Israeli tourists in 
2002. They may well have had the aid and support of an 
organization like Al-Ittihad. It is also a fact that Hassan 
Dahir Aweys, who is now chairman of the Consultative Committee, 
which is roughly analogous to a parliament of the Council of 
Islamic Courts, was a member of Al-Ittihad's executive 
committee back in the 1990s.
    As sections of Somalia have become increasingly subject to 
the influence of extremist elements, the prospect increases for 
linkages to terrorism. But, this does not mean that Somalia is 
going to become a major al-Qaeda base, nor does it mean Somalia 
is headed toward a Taliban-type government. Somalis generally 
follow a rather moderate form of Islam and the situation is 
still exceedingly fluid, and in spite of all the media 
attention suggesting the coming of the Taliban to Somalia and 
the transfer, possibly, of al-Qaeda there. One should be very 
skeptical of that.
    Any unilateral effort that the United States tries to 
undertake in Somalia is doomed to fail. There also is, of 
course, the problem of scarce U.S. resources. But 
unfortunately, since this subcommittee held a hearing on 
Somalia in 2002, the amount of development resources that have 
gone into Somalia have actually declined. They have not 
increased. PL-480 may have gone up or at least it goes up and 
down like a yo-yo. But development aid has not gone up, and in 
fact, in fiscal year 2002, according to the USAID Web site, the 
dollar figures for development aid were $2,000,000 and slated 
to rise to just over $2.5 million for fiscal year 2007, 
according to a report that USAID issued in June 2006. There 
just has not been, in my view, a policy decision to make a 
serious effort in Somalia.
    I'm going to skip all of the analyses that I included in my 
extended remarks and I would, Mr. Chairman, ask if you would 
enter my full remarks into the record.
    Senator Martinez. They will be received.
    Mr. Le Sage. For the sake of time, I would like to mention 
a few things about regional issues that Steve Morrison talked 
about. The regional implications of these recent developments 
in Somalia, that is, particularly the rise of the Islamic 
Courts, are huge. Ethiopia, obviously, feels the most 
threatened by it. But frankly, it goes beyond Ethiopia and it 
dates back to the greater Somalia concept and Somali 
irredentism and the feeling, at least by the extremist side of 
the Council of the Islamic Courts, that they would like to 
revive the concept of Somali irredentism. That brings Kenya 
into the issue because you have a large Somali population 
community living in the northeastern part of Kenya. It even 
brings Djibouti into the question, where 60 percent of the 
population is Somali. Other important regional players in all 
of this are, in addition to Kenya and Djibouti, Egypt, Saudi 
Arabia, Yemen, United Arab Emirates, and Sudan. If you have any 
questions about those countries, I'll be happy to get into it. 
I would like to end by just talking a bit about policy 
suggestions. I think that's the most important part of what we 
can do here today. All of Somalia's neighbors, also Egypt, 
Yemen, Saudi Arabia UAE, the Executive Director of the Inter-
Governmental Authority for Development, and representatives 
from the Africa Union, the Arab League, and the European Union 
need to be brought into this process of consultation if not 
actual membership in the contact group, which is a much more 
limited organization. It is important to encourage the dialog 
that has begun between the Transitional Federal Government and 
the Islamic Courts as Assistant Secretary Frazer suggested. In 
the final analysis, the Somalis themselves will decide, for 
better or worse, their own future. The immediate focus, in my 
view, ought to be on discussions between the TFG and the 
Islamic Courts. The United States should not close the door to 
possible direct contact with the Courts but I think for the 
time being, it would be better to put the TFG into that role. I 
fully subscribe to the idea of establishing a Special Envoy for 
Somalia, on the grounds that there is no one in the U.S. 
Government today, in all due respect to the Assistant 
Secretary, who has the time and I underscore time, and the 
expertise on Somalia, to deal with the issue. The issue has 
become too big. It requires far more time than any single 
individual can do who is responsible for 47 other countries on 
the continent.
    I would make a plea for reinforcing U.S. Government ties 
with Somaliland. This does not mean diplomatic recognition. 
That should come in the first instance from the African Union. 
But Somaliland has proved its commitment to democratic 
governance. It has avoided conflict with all of its neighbors. 
It has generally maintained peace and security and it deserves 
more support. I argued in 2002, before this committee, that the 
United States ought to establish a small liaison office in the 
capital of Hargeisa. I would again make that argument.
    I would urge that USAID increase its development assistance 
to both Somalia and Somaliland. I realize that aid is not a 
panacea for the problems, but it is an important part of a 
comprehensive policy toward the region. It particularly needs 
to focus on the building of social and governance institutions. 
It probably only can do that in Somalia, as opposed to 
Somaliland, by working through indigenous and international 
nongovernmental organizations and groups like UNDP and UNICEF. 
Until there is a policy decision, however, to give a higher 
priority to Somalia and Somaliland, there will not be any 
significant increase in USAID funding. I would also make a 
plea, as I have done in the past, for the Voice of America to 
establish a Somali language service. It had one back in the 
time of UNOSOM and UNITAF. That disbanded when U.S. troops 
left. And if the United States is really serious about doing 
something in Somalia, VOA ought to be able to come up with the 
funding in order to put this into effect. They've been talking 
about it for 5 years. Obviously, anything the United States can 
do to help shut down piracy off the coast of Somalia is a 
positive thing. The international force in the region is doing 
that at the moment. I commend them for that. But it is also 
important to keep in mind that the piracy is essentially a 
commercial activity. It is not, for the most part, connected to 
terrorism. There is another problem that Saudi Arabia has posed 
for Somalia and Somaliland by banning the importation of 
livestock, the primary export from the region. This is an issue 
that should have been solved many, many years ago but for 
whatever reason, it hasn't. I think it is also time to draw on 
the expertise of regional experts. There aren't very many in 
the United States who deal with Somalia but I think a 
brainstorming session involving these people, together with 
U.S. Government personnel is very timely. And by way of 
conclusion, I would say that the policy suggestions in this 
paper constitute simply a point of departure for further 
discussion. They do not meet the criteria of a comprehensive 
policy toward Somalia and Somaliland but these steps and others 
will, I believe, contribute to reducing the threat of terrorism 
posed by continuing instability in Somalia. The urgency has 
become greater in recent weeks and I think the time has come to 
take this on as a serious issue. Thank you, Mr. Chairman, for 
giving me the opportunity to speak.
    [The prepared statement of Hon. Shinn follows:]

   Prepared Statement of Hon. David H. Shinn, Adjunct Professor, The 
Elliott School of International Affairs, George Washington University. 
                             Washington, DC

    I thank the subcommittee for inviting me to participate in this 
hearing. I had the pleasure of appearing before this subcommittee on 
February 6, 2002, when it held a hearing entitled ``Somalia: U.S. 
Policy Options'' chaired by Senator Feingold. I opened my comments more 
than 4 years ago with several assumptions that remain essentially valid 
today. I wish to reiterate and update them for this hearing.

                              ASSUMPTIONS

Geographical scope
    I include both the southern two-thirds of Somalia known prior to 
independence as Italian Somalia and the northern third known previously 
as British Somaliland as constituting the territory covered in my 
remarks. In order to distinguish between the two areas, I refer to the 
southern two-thirds as Somalia and the northern third as Somaliland. 
The Transitional Federal Government (TFG), now based in Baidoa, 
exercises nominal control over parts of Somalia. The Council of Islamic 
Courts (CIC) controls most of greater Mogadishu and most territory from 
Jowhar to the north, the Lower Shebelle to the south and Beled Weyne to 
the west. A democratically elected government in Hargeisa rules 
Somaliland, although its control is contested in Sool and part of Sanag 
regions, which Puntland also claims. Somaliland declared its 
independence from Somalia in 1991 but no government has extended 
official recognition.

U.S. comprehension of region
    The United States has been absent from Somalia since 1994. United 
States Government personnel make occasional visits to Somalia and 
Somaliland, mainly to Hargeisa and Baidoa. The difficult security 
situation in Mogadishu has not permitted the assignment of Americans 
there. Although the United States Government has improved marginally in 
recent years its understanding of the situation in Somalia and 
Somaliland, its knowledge remains highly flawed.

Terrorist links
    In the mid-1990s, a Somali organization known as al-Ittihad al-
Islamiya (AIAI), or Unity of Islam, publicly acknowledged that it 
carried out terrorist attacks against Ethiopia. Its direct terrorist 
activity seems to have been confined to Ethiopia. AIAI became largely 
dormant about the turn of the century. Under Executive Order 13224, the 
United States listed AIAI on 23 September 2001 as an organization 
linked to terrorism. Hassan Dahir Aweys, now Chairman of the 
Consultative Committee (roughly analogous to a parliament) of the 
Council of Islamic Courts was a member of AIAI's executive committee. 
Under the same executive order, the United States designated on 7 
November 2001, Hassan Dahir Aweys and a number of other Somalis as 
persons linked to terrorism.
    It is widely believed in western counterterrorism circles that al-
Qaeda personnel transited and perhaps operated out of Somalia in the 
1998 attacks on the United States Embassy in Nairobi and Dar es Salaam 
and the 2002 attack on Israeli tourists outside Mombasa, Kenya. It is 
also widely believed that there was some kind of contact between AIAI 
and al-Qaeda. The United States Government has alleged that three 
persons complicit in the attack on the United States Embassies in 
Nairobi and Dar es Salaam took refuge in Somalia. I am unable to shed 
any light on their possible continued presence there. There were 
several terrorist attacks in recent years against non-Somali targets in 
Somaliland. Authorities in Somaliland believe the attacks originated in 
Somalia.
    As sections of Somalia, especially greater Mogadishu, have become 
increasingly subject to the influence of extremist elements, the 
prospect increases for linkages to terrorism. This does not mean, 
however, that Somalia is likely to become a major al-Qaeda base or that 
it is headed toward a Taliban form of government. The vast majority of 
Somalis follow a moderate form of Islam and they are highly suspicious 
of foreign influence. Although there are some worrying developments 
coming from some of the Islamic courts, the situation is much too fluid 
to jump to conclusions.

Need for central authority
    Until a semblance of the rule of law and some modicum of central 
authority are reestablished throughout Somalia, it will be virtually 
impossible to create viable institutions that give Somalis any hope for 
the future. Likewise, it will not be possible to implement successfully 
long-term policies aimed at eliminating or even reducing the terrorist 
threat from Somalia.

Unilateral effort doomed to fail
    A unilateral United States policy in Somalia is almost guaranteed 
to fail or achieve little. The only long-term strategy that has any 
hope for success must be coordinated carefully with key countries in 
the region, European allies, the African Union, Intergovernmental 
Authority for Development, United Nations, and the Arab League. The 
recent reconstitution of the Somalia Contact Group was a good first 
step.

Scarce U.S. resources
    It will be difficult to mobilize significant United States 
resources in support of a comprehensive policy toward Somalia. There 
are just too many competing demands on limited resources. Some in 
Congress and the executive branch will argue that the United States 
spent billions, primarily for two peacekeeping operations, in Somalia 
in the early- and mid-1990s, question whether it was worth the cost, 
and be reluctant to reengage. Since my testimony in 2002, USAID 
development assistance to Somalia has actually declined. Development 
aid levels, excluding PL-480 food assistance, were about $4.5 million 
in fiscal year 2002, $3.4 million in fiscal year 2003, and $2 million 
in fiscal year 2004. The total bumped up to $5.1 million in fiscal year 
2005 due primarily to the intervention of a member of this 
subcommittee. Development aid dropped back to about $2 million in 
fiscal year 2006 and according to USAID's Operational Plan dated 2 June 
2006 is slated to rise to just over $2.5 million in fiscal year 2007. 
The levels have dropped so low, however, that they cannot be explained 
solely by competing priorities. There has simply not been a policy 
decision to make a serious effort. Somalia is admittedly an exceedingly 
difficult place to implement an aid program; this argument does not 
hold true for Somaliland. Although more United States development aid 
alone may not do a great deal to improve the situation in Somalia, it 
must be an important part of a comprehensive United States policy 
toward Somalia.

                    ANALYSIS OF RECENT DEVELOPMENTS

    Although there have been brief periods of relative calm, sustained 
peace and security never returned to the greater Mogadishu area 
following the collapse of the Siad Barre Government in 1991. Except for 
occasional conflict in Sool region, Somaliland has been peaceful for 
more than 10 years. Northeastern Somalia, also known as Puntland, 
declared its autonomy a number of years ago and generally has been 
quiet. Its former leader, Abdullahi Yusuf, is now the President of the 
TFG. Even the southernmost part of Somalia has experienced long periods 
during the past 10 years without significant conflict. Most of the 
difficulties that you have read about in the media since the departure 
of the U.N. peacekeeping mission in 1995 have occurred in the greater 
Mogadishu region. This is where the population is concentrated, the 
warlords competed for power, the Islamic courts began their rise, and 
Somali businessmen backed whichever group they thought would be most 
useful to them. The business community is an important part of the 
equation as it funds the militias.
    The Islamic or sharia courts have been around since the early 
1990s. They have long been given credit for creating a semblance of law 
and order in the areas where they exercise control. In some cases, 
drawing on funding from Saudi Arabia, the Gulf States, and the Somali 
diaspora, they have established clinics and Islamic schools. This has 
helped to ingratiate them with ordinary people. Many Somalis also 
welcomed the forced departure from Mogadishu several weeks ago of most 
of the bickering warlords by the Islamic court-supported militias.
    The court structure is highly decentralized. Some of the courts are 
led by extremists, others by moderates. They all agree on their goal to 
create an Islamic state. It is not clear, however, that they have the 
same vision for that state. Puritanical Salafi and Wahhabi beliefs 
imported from the Gulf have become popular in many of the courts. An 
important part of that theology is intolerance toward all nonbelievers. 
But others in the court leadership draw inspiration from Egypt's 
Islamic scholar, Sayyid Qutub, who was more moderate and advocated 
engagement and compromise. It is also clear that some leaders in the 
CIC, certainly including Hassan Dahir Aweys, wish to reenergize the 
Greater Somalia concept by incorporating into Somalia those Somali-
inhabited parts of Ethiopia, Kenya, and Djibouti.
    Perhaps most important, the courts have developed so far largely on 
a clan and subclan basis. Their power resides in the Hawiye clan, one 
of Somalia's five major clans. It remains to be seen if their authority 
will extend significantly to other clans. Their support among the 
Hawiye seems to be broad, but not especially deep. At least one Hawiye 
warlord in Mogadishu continues to hold out against the court militias. 
In the final analysis, clan loyalty will probably prevail over a 
particular brand of Islamic theology. There could well be a significant 
push back by Hawiye leaders against the extremist theological views of 
some of the CIC leaders.
    The TFG is unable, for security reasons, to locate in Somalia's 
traditional capital--Mogadishu. It initially tried to establish a 
capital in Jowhar, now under the control of the CIC, and then moved to 
Baidoa in south central Somalia. But it has minimal control in Baidoa 
and little prospect of establishing authority in other parts of Somalia 
outside Puntland. The TFG is, nevertheless, the only governing 
organization recognized by the African Union, United Nations, and Arab 
League. It is legally constituted and still has about 3\1/2\ years left 
in its term.
    Sudan's President Bashir is the current Arab League chairman. To 
the surprise of many, he brokered on behalf of the Arab League on June 
22 in Khartoum an agreement between the TFG and the CIC. Both parties 
accepted mutual recognition and agreed to begin negotiations on a 
reconciliation process that is scheduled to begin on July 15 in 
Khartoum. The subsequent ascendance to power within the CIC of 
extremist Hassan Dahir Aweys puts in jeopardy the future of these 
talks.
    Operating from a position of weakness, President Abdullahi Yusuf 
and the TFG have called for an African Union peacekeeping mission for 
Somalia. The TFG sees such a force as protecting it from the CIC and 
any remaining hostile warlords. The prospects for an African Union 
peacekeeping mission are bleak. It would be unwise for military forces 
from any contiguous country to take part in such an operation. Ethiopia 
volunteered to send troops when the idea first came up. It seems to 
have concluded subsequently that this would be a mistake because of the 
historical animosity between Ethiopians and Somalis. The presence of 
Ethiopian troops in Somalia will only reignite Somali nationalism. The 
African Union identified Uganda and Sudan as the source of troops for 
Somalia. Uganda has said it would only send troops after peace has been 
achieved. That is not very helpful from the standpoint of timing. Sudan 
has been notably silent concerning a contribution of troops. One must 
wonder, however, if Sudanese troops are a possibility in view of its 
problems in Darfur. The CIC has stated categorically that it will not 
accept a foreign peacekeeping force.
    Al-Qaeda stepped into the breach on July 2 when it released an 
audio tape by Osama bin Laden that denounced the TFG and called on 
Somalis to support the CIC. Bin Laden condemned any peacekeeping 
mission to Somalia, stating it would be an agent of American 
``crusaders.'' The head of the CIC executive committee, Sheikh Sharif 
Ahmed, immediately disassociated himself from bin Laden by stating that 
he was expressing his ``personal opinion.'' Even Aweys said that the 
CIC has no connection with bin Laden.

                            REGIONAL ISSUES

    The regional implications of these recent developments in Somalia 
are huge. Ethiopia feels the most threatened along its 1,000-mile 
border with Somalia and Somaliland. The southeastern part of Ethiopia, 
known as the Ogaden, is inhabited by Somalis and has been subject for 
many years to dissident activity by the local Ogaden National 
Liberation Front (ONLF). Extremist members of the CIC have made known 
their desire to revive Somali irredentism in the Ogaden. It would be no 
great surprise if the CIC has supported the ONLF. Ethiopia has also 
charged Eritrea, which is angry at Ethiopia for not implementing 
binding arbitration in a border dispute, with supporting both the ONLF 
and the CIC. Ethiopia has long supported Abdullahi Yusuf and the TFG. 
It also has good relations with Somaliland. The CIC charged recently 
that Ethiopia sent troops into Somalia to protect Abdullahi Yusuf. 
Ethiopia denied the charge.
    Extremist representatives of the CIC have carefully left out of the 
dialog possible irredentist claims to the Somali-inhabited part of 
northeastern Kenya and to Djibouti, whose population is 60 percent 
Somali. In any event, Somaliland stands between Somalia and Djibouti. 
This makes highly unlikely any revival of the irredentist issue in 
Djibouti, at least for the time being. But if the CIC is able to 
consolidate power throughout Somalia and if the extremists take 
complete control of the organization, it will only be a matter of time 
before Kenya becomes subject to Somali irredentism.
    Other important regional players, in addition to neighbors Kenya 
and Djibouti, are Egypt, Saudi Arabia, Yemen, United Arab Emirates, and 
Sudan. Egypt has a long historical interest in Somalia and has in the 
past used Somalia as a pawn to distract Ethiopia. Egypt, for example, 
supported Somalia during its war against Ethiopia in 1977. Saudi Arabia 
was the major importer of livestock from Somalia and Somaliland but has 
stopped the trade on grounds that the animals cannot be properly 
certified as disease-free. Saudi money has also been instrumental in 
the development of Salafism and Wahhabism in Somalia. Yemen is a 
frequent destination for Somali refugees seeking a better life. Dubai 
in the United Arab Emirates has become the major financial center for 
Somalia and Somaliland. Sudan has long maintained relations with 
Islamic groups in Somalia. As current chair of the Arab League, it 
could play a positive (or negative) role in bringing the CIC and TFG to 
the negotiating table. The Intergovernmental Authority for Development, 
which represents the five countries in the Horn of Africa and Kenya and 
Uganda, is also central to the peace process.

                           POLICY SUGGESTIONS

Continue contact group and widen consultations
    The Contact Group should meet on a regular basis and expand its 
membership to include all of Somalia's neighbors, Egypt, Yemen, Saudi 
Arabia, United Arab Emirates, the executive director of the 
Intergovernmental Authority for Development, and representatives from 
the African Union, Arab League, and European Union. If it is not 
feasible to include all of these countries/organizations in the Contact 
Group, the United States should engage all of these parties in regular 
bilateral consultation concerning Somalia and Somaliland.
    The United States has maintained regular contact with 
representatives of the TFG. This should obviously continue. It is also 
important to encourage the dialog that has begun between the TFG and 
the CIC. In the final analysis, Somalis themselves will decide, for 
better or worse, their own future. The international community can 
cheer from the sidelines, reward positive developments with tangible 
assistance, and express displeasure when there are setbacks, but they 
cannot decide the future for Somalis. Although the immediate focus 
should be on discussions between the TFG and CIC, the United States 
should not close the door to direct contact with appropriate members of 
the CIC.

Establish a special envoy for Somalia
    I am normally not enthusiastic about the naming of special envoys 
to deal with country-specific crises. Special envoys sometimes create 
more problems than they solve by working at cross purposes with 
ambassadors on the ground. Somalia is an exception. For good reason, 
there is no United States ambassador in Somalia. In fact, there are no 
United States personnel assigned to Somalia. A special envoy for 
Somali, supported by a small staff, would for the first time since 1994 
permit United States policy toward Somalia to rise to the level 
required for adequate interagency coordination in Washington and the 
field. The assistant secretary of state for African affairs or one of 
the deputies just do not have the time to devote to an issue as complex 
as Somalia. Perforce, the issue is relegated to the desk officer for 
Somalia and occasionally the director of East African affairs. This 
system works well for most situations. Somalia has risen above this 
level.

Reinforce ties with Somaliland
    This is not a plea to extend diplomatic recognition to Somaliland. 
I have argued for years that the African Union or, at a minimum, key 
African governments should be the first to take that step. Although 
Somaliland authorities are warmly received in a number of African 
countries and the African Union recently issued a complimentary report 
on the situation there, no country has recognized Hargeisa.
    Somaliland has proved its commitment to democratic governance, 
avoided conflict with all of its neighbors, and generally maintained 
peace and security. It has particularly strong support from the 
Somaliland diaspora, which has become the overwhelming source of most 
of its income. I suggested at the 2002 hearing that the time had come 
to increase United States assistance and to establish a small American 
liaison office in Hargeisa. The focus should be on the provision of aid 
and the sharing of information on terrorism. The American presence 
might consist of two State Department officers and one or two USAID 
staff. The security situation is no worse in Somaliland than in many 
other countries around the world where the United States has a large 
presence.

Increase USAID development assistance to Somalia and Somaliland
    Foreign aid is not a panacea for the problems of Somalia and 
Somaliland, but it is an important piece of a comprehensive policy. As 
noted above, USAID development assistance to Somalia and Somaliland has 
actually been declining in recent years. The time has long passed to 
reverse this trend. The focus of the small USAID program--mitigating 
conflict, strengthening civil society, and improving access to basic 
education--is sound. It is just too little and USAID should begin to 
add other project areas. It is particularly important to support the 
building of social and governance institutions. USAID should expand its 
support for the growing number of Somali professional organizations. 
One innovative program that has been tried in Somali region of Ethiopia 
and has promise throughout the Somali-speaking region is interactive 
secular primary education by radio. The lessons are broadcast from a 
central location by Somalis in Somali to schools throughout the region. 
Somali teachers undergo a brief training period at a central location 
so that they can make the most efficient use of the material. Somalis 
constitute an oral society; radio is an ideal teaching medium.
    Because it is easier to work in Somaliland, most of USAID's 
assistance has actually gone there. Hargeisa is deserving of the aid, 
but it is also important to find ways to have more active programs in 
Somalia, probably by making greater use of indigenous and international 
NGOs and working through international agencies like UNDP and UNICEF. 
Security conditions do not yet permit the stationing of American 
personnel in Somalia or even visits to parts of the country. Until 
there is a policy decision to give a higher priority to Somalia and 
Somaliland, there just will not be any significant increase in USAID 
funding.

Fund a voice of America Somali service
    The Voice of America (VOA) had a Somali-language service during the 
United States-led and U.N. peacekeeping missions to Somalia in the mid-
1990s. With the departure of international forces, the service became a 
victim of United States unhappiness with events in Somalia and other 
budget priorities. Resumption of a Somali service has been under 
discussion at VOA for at least the past 5 years. It has never crossed 
the budget priority threshold. There are about 10 million Somalis in 
Somalia and Somaliland, more than 4 million in Ethiopia, and smaller 
numbers in Kenya and Djibouti. If the United States is serious about 
having an impact on Somalis it will fund this language service.

Help prevent off-shore piracy
    There is an international naval task force with strong American 
participation that operates throughout the waters of the region. It has 
already contributed to efforts to reduce piracy off the shores of 
Somalia. This should continue and, to the extent there are not higher 
priorities elsewhere, increase. But it is also important to understand 
that Somali piracy is essentially a commercial undertaking; it has 
little to do with the problem of terrorism.

Make Somali livestock acceptable for importation in Saudi Arabia
    The single most important export from Somalia and Somaliland has 
traditionally been livestock. Saudi Arabia, the biggest buyer in 
earlier years, periodically stops imports because no organization can 
certify that the animals are disease-free. This has been a problem for 
at least 10 years and should be susceptible to resolution. A solution 
would have a major positive impact on the economies of Somalia and 
Somaliland.

Make greater use of the Somali diaspora
    Somali-Americans have become an increasingly important part of 
American society. Although many are recent arrivals and still finding 
their way, others have become significant contributors to American 
institutions such as local government, business, and education. 
Minneapolis-St. Paul boasts the largest Somali community in the United 
States with Columbus, OH, in second place. But you can probably find 
Somali communities in every State and every large city. Remittances to 
Somalia and Somaliland have become an important part of national income 
in both countries. Many of those Somalis who have become well 
established in the United States would like to contribute in other ways 
to improve life in their country of origin. An American foundation or 
NGO, possibly with United States Government funding, should be 
encouraged to assemble representatives from these communities in the 
United States to determine if they have ideas for contributing to the 
establishment of stability and development in Somalia and Somaliland.

Draw on the expertise of regional experts
    There is not a great deal of expertise on Somalia and Somaliland in 
the United States Government. U.S. understanding of neighboring 
countries is much better. It would be useful to assemble the handful of 
American experts, explicitly to include several Somali-Americans, to 
brainstorm the kinds of policies that might most effectively further 
American interests in the region. Such a session should include 
representatives from United States Government agencies that follow 
events in Somalia and Somaliland or conduct programs there. They could 
provide a reality check. Representation from the Combined Joint Task 
Force-Horn of Africa based in Djibouti would also be helpful. But to 
serve any purpose, the brainstorming session needs to be a free-flowing 
discussion with most of the comments coming from those who are not part 
of the U.S. Government.

                               CONCLUSION

    The policy suggestions in this paper constitute a point of 
departure for further discussion. They do not meet the criteria of a 
comprehensive policy toward Somalia and Somaliland. I have made all of 
them previously, either before this subcommittee or in other written 
analyses. These steps, and others, will, I believe, contribute to 
reducing the threat of terrorism posed by continuing instability in 
Somalia. I ended my remarks before the subcommittee more than 4 years 
ago with the following statement: ``The urgency is in launching the 
dialog and gaining support from allies and countries in the region.'' 
The urgency has become even greater because developments in Somalia now 
have the potential to inflame the entire region.
    Again, thank you for inviting me to this hearing.

    Senator Martinez. Thank you very much for your very 
thoughtful remarks and for being here with us today. I want to 
pick up on that very last point that you mentioned because I've 
heard--some of the comments suggest that perhaps the terrorism 
threat may not be as great as reported. And perhaps it is not a 
question of if we agree but on the immediacy so if either one 
of you would care to clarify on that, I would appreciate it 
because I've heard it, some encouragement that perhaps there is 
no immediate concern regarding the terrorism, no relationship 
necessarily to al-Qaeda but at the same time, obviously, a 
failed state is the breeding ground for the potential for that 
to occur. So I just wondered if Dr. Le Sage, you might want to.
    Dr. Le Sage. Sir, thank you very much. I think this is a 
critical issue. We don't want to generalize about the terrorist 
threat. At the same time, I do think it is an immediate 
concern. The immediate concern that comes from the small number 
of al-Qaeda operatives that are in the country and from the 
Somalis linked to the Al-Ittihad network that are immediately 
associated with them. But the danger comes if we generalize 
from this very specific and immediate threat to the entire 
Islamic Courts establishment. The Islamic Courts contain some 
militants and extremists amongst them but they also contain a 
diversity of other actors, nonviolent, conservative individuals 
and the ability to separate away these nonviolent actors from 
the militants to isolate those militants, will provide a better 
basis for counterterrorism but that small group does pose an 
immediate threat in my view, both to Somalis, to actors around 
the region, and to United States interests.
    Mr. Morrison. Yes, sir.
    Senator Martinez. Mr. Morrison.
    Mr. Morrison. I want to add my support to what Andre said. 
The three high-value targets that are thought to still be 
sequestered in the Mogadishu area, they have a proven record of 
launching sophisticated operations against American interests 
and they were directly implicated in the August 1998 Embassy 
bombings in Nairobi and Dar es Salaam, which left 224 people 
dead and over 4,000 gravely wounded. They were involved in the 
November 2002 operations, some of these parties in Mombasa, the 
attack on the Israeli tourist hotel and the attempt on the 
airliner. The modus operandi that was used in all of those 
operations was consistent. It had back linkages into Mogadishu. 
This is a Swahili Coast Network that operates with 
sophistication and has been able to elude a crackdown from a 
number of different directions and we should not underestimate 
the significance of that. I also agree that we shouldn't be 
drawing the conclusion that because they are in proximity to 
others in Somalia, that they are embraced by them. However, if 
the CIC are going to govern this environment, they have a 
responsibility to eliminate from their midst, these players and 
that is what I meant when I said we need to be very clear in 
what we communicate and we shouldn't be shy about direct 
communication with them around these security concerns.
    Senator Martinez. Well, there doesn't appear to be any--
well, go ahead, sir.
    Mr. Le Sage. I agree with the statements that were just 
made. The distinction I would make is that I don't see Somalia 
becoming a Taliban-type regime at this point in time. In fact, 
I would be dubious about it happening as far as I can see into 
the future, nor do I see it as replacing the mountains of 
Pakistan and Afghanistan as an al-Qaeda base. I just don't 
think that is feasible. But certainly there are terrorist 
connections with Somalia. This is worrisome and the situation 
becomes more worrisome in the view of developments over the 
last several weeks. There have been proven terrorist incidents 
involving Al-Ittihad, which in the mid-1990s, publicly took 
credit for attacks against Ethiopia. Al-Ittihad seems to have 
become dormant in recent years but the people who were in that 
organization are still around.
    Senator Martinez. But is the failure of what you don't see 
happening, is the fact that it is not occurring in terms of a 
Taliban-type entity, just the mere fact that there is no one in 
complete control? Or is it a desire not to head in that 
direction?
    Dr. Le Sage. If I could, I believe----
    Senator Martinez. The chaotic situation may be perhaps, is 
the impediment, not the lack of a desire to.
    Dr. Le Sage. There are certainly extreme elements within 
the Islamic Courts. We mentioned Hassan Dahir Aweys, who is 
head of the Sharia Consultative Council. He and his supporters 
have publicly stated that they want to see a Taliban-like state 
occur. Whether or not they can accomplish that, however, is a 
different thing. There are a great array of actors, Somali 
actors that do not want to see that happen. However, the 
confusion that exists and the insecurity that exists across 
Southern Somalia in particular, creates an opportunity for the 
terrorist elements to take action, even if a full Taliban-like 
state is not realized. And I agree with Professor Shinn that 
this is unlikely to happen in the near future.
    Senator Martinez. Yes sir, Mr. Morrison.
    Mr. Morrison. I think it is important to see what is 
happening in Somalia as not the formation of something that 
resembles the Taliban but rather the creation of opportunistic 
alliances among a number of different armed groups that are 
able to cooperate today in ways that they could not cooperate 
earlier. You have Al-Ittihad coming back. You have it at the 
center of the Islamic Courts. You have linkages with the Ogaden 
Liberation Front, the Aromo Liberation Front and the Eritreans 
meddling in terms of provision of material and trainers. When 
we had a cojoining of these kinds of interests 10 years ago, it 
resulted in the training of hundreds of people who were 
exported around the region and committed terrorist acts. That 
is what is getting under the Ethiopian skin, is that threat 
where they see the reformation of these alliances that are 
opportunistic, they are odd bedfellows, they have different 
agendas but in the environment in Somalia today, they are 
thriving and that is one of the core challenges that we face.
    Senator Martinez. Senator Feingold.
    Senator Feingold. First of all, Mr. Chairman, I think your 
thoughtful question is a very important one and so were the 
answers. I think it is very important to realize that looking 
for an absolute similarity to the Taliban is not a sufficient 
question. We know that individuals who have perpetrated attacks 
on Americans and killed Americans are still present in this 
place. We know that there are a variety of forces there, that 
even though might not be the same type of hiding place as 
Afghanistan or Pakistan, that still can use this kind of 
environment and it is so juxtaposed in a region a few miles 
from Yemen and right near Sudan and Kenya, that it is 
exceptionally dangerous, not just in the potential sense, not 
just because people are disaffected, not just because they have 
problems, but because of the actual presence of people and 
movements and others that to me, Mr. Chairman, make this one of 
the most critical places in the world in the fight against 
terrorism and I hope that is clear to people coming out of this 
hearing.
    Thinking broadly, could each of you talk briefly about why 
you think we are in the position we are in as it relates to 
Somalia, seeing that we've been down this road before? Why is 
the U.S. Government rehashing the same questions over and over 
again and what will it take to break this cycle? Let's start 
with the Ambassador.
    Dr. Le Sage. I think that first, there is the legacy of the 
United States involvement in Somalia in the 1992-1994 period. 
It is a legacy that most Americans don't want to remember. It 
is a legacy that was largely a negative one. Unfortunately, it 
is also forgotten by the vast majority of Americans that that 
effort did stop famine in Somalia. It stopped it and you never 
hear about that now. You only hear the negative things. Nearly 
everyone saw ``Black Hawk Down'' and they know that Americans 
were killed there. They think that the Somalis should have been 
grateful for what the United States did. Mistakes were made. 
Mistakes were made on all sides of that operation. But that 
legacy has so soured the atmosphere in terms of dealing with 
Somalia that people tend to run in the other direction when you 
even mention the word. It's unfortunate because the time has 
come when they should hold their ground and deal with the 
issue, not run the other direction.
    The other problem, I think, that Somalia faces is simply 
trying to compete on the priority list of problems that exist 
around the world today. There obviously are some that have a 
higher, and rightfully so, priority. It's really tough to get 
very busy people to focus on something like Somalia when they 
are being pulled and tugged on other issues that are on the 
front pages of the press, not page 19 each day. Unless that 
changes, and I hope it doesn't change, because I don't 
particularly want to see Somalia on the front page of the press 
again, at least for negative reasons, it is going to be very 
hard to get people to focus on it. It's a pity because this is 
still an issue where it may be possible to prevent bad things 
from happening, rather than waiting until Somalia completely 
collapses. Then it is too late.
    Senator Martinez. Dr. Le Sage.
    Dr. Le Sage. Sir, I think that there have been two 
objectives in Somalia for a long time. One is the long-term 
peace building objective and there is a strong realization that 
a stable, sustainable
Somali Government that reflects the interests of the people is 
required in the long term to make sure there is no safe haven 
for terrorism.
    At the same time, because of the immediate terrorist 
threat, we have short-term counterterrorism objectives that 
need to be accomplished. These efforts are obviously linked but 
I think the challenge for policy makers in the Somali context 
is to make sure that these short- and long-term objectives do 
not conflict with each other. We have heard from Secretary 
Frazer about the policy approach to Somalia and we have heard 
about the need also, for an implementation plan for those 
policy approaches. I think this effort to de-conflict the 
short- and long-term strategies is what is required now in the 
implementation plan to make it clear how the United States is 
going to go about addressing these dual objectives.
    Senator Martinez. Mr. Morrison.
    Mr. Morrison. Let me offer a few thoughts on why we've had 
this very, very long, decade-long hangover effect from the 
Mogadishu debacle of October 1993. One is the Clinton 
administration paid a huge price as the White House took a huge 
hit on Somalia and people have not forgotten that. Those 
lessons were passed over. There is a deep phobia against 
getting engaged in Somalia. There is a large, negative 
constituency among foreign policy advocates. There is a very 
weak constituency--the leadership on this issue has really 
fallen to activists like Senator Feingold and Senator Coleman 
in keeping a perspective and revisiting this. Sudan has 
attracted a much larger, sustained domestic constituency base. 
So those are two factors. The third factor with Somalia--we 
learned to live with Somalia. Somalia was able to, in some 
degree, restabilize through remittances, through restored 
market arrangements, cock trade, bananas, small stock export. 
The counterterrorism anxieties that came up right after 2001 
and into early 2002 were not realized. The memories of the 1998 
bombings were old and predated 2001. If those bombings had 
happened after 2001 and it had been demonstrated that they were 
linked back to Mogadishu, it would have been a different set of 
consequences. If the Mombasa operation had succeeded and taken 
down an Israeli airliner with 200 people on it or killed the 
125 that were the target in the lobby of the hotel, you can bet 
we would have taken a different perspective on Mogadishu and 
the back linkages and the fact that the guys that did those 
operations scurried back across the border into Somalia within 
a few hours by public transportation, carrying their weapons 
with them. So, there are some accidental factors. There are 
some structural economic factors. The fact that the region 
itself and the international community could never pull 
together an effective peace process that could be sold here to 
Washington, as this is really going be the one that works. So 
you had the Liberia-like experience. A dozen efforts that fail, 
cynicism settles in. What can you do? Let the region take care 
of it. The Ethiopians went in and cleaned out Al-Ittihad in the 
mid-1990s. They took care of the problem. We didn't nearly need 
to think about that until we got to the 1998 bombings and the 
2002 bombings.
    Senator Feingold. Those were all very penetrating answers 
and I just----
    Senator Martinez. Can I just excuse myself? I want to thank 
the panel for being here. I have to be at another matter at 
3:30, so I am going to have to excuse myself but I'll leave the 
hearing in the hands of the distinguished ranking member. But 
very much thank you for this important testimony today.
    [In Unison.] Thank you, Senator. Thank you.
    Senator Feingold. I thank the chairman again for allowing 
this hearing and let me just pursue a few more things. First, I 
particularly appreciated Mr. Morrison's remark about Sudan. I 
have been a member, chairman, or ranking member of the 
Subcommittee on Africa for 14 years and I have been as 
supportive and moved by the situation in Sudan as anyone and 
continue to be. But the reality is, our attention concerning 
Sudan has a great deal, in the first instance, to do with the 
fact that Christians were being persecuted in the southern part 
of the country and that, of course, led to interest on the part 
of the members of this committee. Of course, when it comes to 
Darfur, our former Secretary of State called it genocide. It is 
hard to imagine two things more compelling but the fact is we 
were attacked on 9/11 and that has to do with a terrorist 
threat and one of the great ironies is that our attention, of 
course, goes to a place like Sudan for the reasons I just 
identified but we are sort of unable to see what is right in 
front of us, that the Somalia situation is at the very core of 
the greatest threat to America, which is potentially or to some 
extent, actually the role of al-Qaeda in affiliate or 
sympathetic networks that may grow in places such as Somalia. 
So I think it is very important somehow, get this through to 
Members of Congress that this needs more attention, just as the 
Ambassador was suggesting.
    As you know, the Senate passed the amendment I offered to 
the defense authorization bill. Could you each comment on this 
amendment and on other suggestions you may have concerning 
legislation or resources.
    Mr. Morrison.
    Mr. Morrison. We had the opportunity, all three of us have 
had the opportunity, to review that and to engage with your 
staff and others who were involved in preparing that and 
personally, I want to thank you and commend you for putting 
that through. The call for an interagency process and a 
strategy and an implementation strategy is long overdue and is 
welcome, and I think the type of pressure that comes out of 
congressional action of this kind can help overcome and 
mitigate many of the chronic tensions between our intelligence 
services versus our diplomatic services who are not on the same 
page, who are not coordinating, who are not talking to one 
another and do not have a common agenda or a common plan and I 
take it that is your primary intent is to nudge an 
implementation strategy and an interagency approach that does 
not exist today and to that end, I commend you and I hope this 
works in helping move that forward.
    Senator Feingold. Thank you.
    Dr. Le Sage.
    Dr. Le Sage. Thank you. I will just simply say that the 
need for the implementation plan, the need for a concrete 
method by which we will achieve our clear policy objectives in 
Somalia, that seems to me to be the outcome that is desired 
from the legislation and in that sense, is a very positive 
development. I'll leave it there.
    Senator Feingold. Mr. Shinn.
    Mr. Shinn. Senator, it was not coincidental that in both my 
oral remarks and written remarks that I used the term, ``the 
need for comprehensive policy'' on quite a number of occasions, 
as I have done with the media in recent weeks. This frankly has 
been lacking. There is an ad hoc policy. There is a policy for 
dealing with humanitarian concerns. There are stopgap measures 
from time to time to deal with the terrorist question, but 
there really is no comprehensive policy that covers all of the 
issues. I tried to lay out a number of them in my remarks. I 
don't purport to have covered all of them. I'm sure that a lot 
of smart people can sit down and come up with a dozen more that 
I've missed. That is what is lacking and is a little bit 
discouraging. It has been lacking since 1994. This is not 
something that crosses a single administration, it crosses two 
administrations and one would hope that the time has come to 
finally sit down and come up with something comprehensive that 
goes beyond the two or three or four immediate ad hoc issues 
that the United States is dealing with. So I commend the 
amendment. I thought it was an excellent amendment.
    Senator Feingold. The last thing I want to do before I 
conclude the hearing is just to go back a little bit to talking 
about this in comparison to Afghanistan. I recognize the 
distinction. The distinction is with regard to the Taliban. I 
recognize Mr. Morrison's direct remark that we can't look at 
the same sort of military option. Nonetheless, I see my job as 
a Senator of the State of Wisconsin as being able to sort of 
articulate these threats to my constituents. Help me put on the 
record what I should tell my constituents about Somalia as it 
relates to the type of thing that happened in Afghanistan. 
Obviously, we were all quite taken by surprise on 9/11 and 
people, I think, have a hard time understanding how something 
as threatening as occurred on 9/11 could be generated from a 
place like Afghanistan. There are distinctions, obviously. But 
are there lessons that we could talk about to help get people 
to realize and to focus on a situation like Somalia when 
compared to Afghanistan?
    Mr. Morrison.
    Mr. Morrison. Well, I think the most compelling evidence 
that you can point to is to say, this has occurred with respect 
to the embassy bombings in 1998 and the Mombasa strike. Those 
operations had backward linkages into Mogadishu. The operations 
were too significant to be planned and executed. They also had 
backward linkages into South Asia and those linkages remain 
alive today and there are multiple targets. We have--we 
continue to have very grave security concerns within the Horn 
of Africa for American interests. I do not see evidence of 
operations being planned that would strike Americans on 
American soil coming out of Mogadishu but I think it is wholly 
conceivable to imagine airliners coming under attack that are 
British or American airliners operating in or out of Nairobi or 
Addis Ababa or other places. I think it is conceivable that 
there could be direct attacks upon American NGO or diplomatic 
or business personnel. I think that is conceivable. I think 
that connects to your average American citizen in a real way. 
We have made a huge commitment to the stabilization and meeting 
the humanitarian requirements of this region. We have made a 
huge commitment in promoting peace in Sudan and attempting to 
turn the tide. We are very projected within this region and 
that puts us at risk.
    Senator Feingold. Thank you, Mr. Morrison.
    Dr. Le Sage.
    Dr. Le Sage. Thank you. I would like to turn the lens back 
on Somalia. The decision about the future of the Islamic Courts 
and the future of governance in Somalia is largely up to the 
Somali people themselves. They have influence. Admittedly, the 
Islamic Courts, the warlords, they have weapons but the Somali 
people have influence if they are ready to use it, through 
their clans, through influential businessmen, through their 
political leadership. They have an influence on who in the 
Islamic Courts is going to succeed, the moderates or the 
extremists that are associated with terrorism. Somalis 
consistently say to the media, to any foreign visitor, that 
they are pleased with the security that the Courts have been 
able to provide in the short term. They are pleased with a 
religious belief system that brings Somalis together rather 
than splitting them apart along clan lines. But at the same 
time, they are fearful for their own future and that of their 
children, if the Somali Courts succeed and are overtaken by 
extremists. They do not want to see the Courts implement 
Draconian vice legislation or change what is the tradition of 
Somalia behavior. So one of the key messages, I think, that we 
need to bring back to the Somali people and to Somalis across 
this country, is that they are going to need to take some 
responsibility at the local level, not just look for United 
States policy or international community policy toward Somalis 
to be the answer to the problems.
    Senator Feingold. Dr. Shinn.
    Dr. Le Sage. Senator, the way you posed the question, in a 
sense, poses a dilemma for me. On the one hand, one wants to 
emphasize the whole threat of terrorism in order to get 
attention to the problem because that certainly does get 
attention. On the other hand, one doesn't want to overstate it 
for fear of carrying the argument too far and making more out 
of the situation from this terrorist standpoint than what 
really exists; so I find myself walking a rather delicate line 
on this. Obviously, the key to the immediate future is 
monitoring what happens on these Islamic Courts. The Courts 
have been around since the early 1990s. They are not new. They 
were doing relatively benign things before. I think virtually 
everyone in the Court system has stated from the beginning that 
they want to have an Islamic state. Well, that is nothing new. 
There are a number of countries around the world that do that. 
The question is how do you constitute that state? How do you 
implement Sharia? What vision do people have for that state, 
and unfortunately, this is where you have extremists and you 
have moderates. I don't know who is finally going to win that 
argument within the Court structure itself. I certainly hope it 
is going to be the moderates who win. In trying to explain all 
of this to the American people, it is probably more difficult 
than even explaining it to Somalis. Somalis have of an inherent 
understanding of some of these issues. Americans obviously 
don't. There is no reason why they should, particularly. I 
think on the one hand, it is important to underscore the 
potential threat to western friends and our friends in the 
region. We must be careful not to carry it too far so that the 
issue is overstated. And that's where I find myself on the 
fence here. I want more than anyone to deal urgently with the 
issue but not to the extent of flying the terrorism flag so 
high that it takes us beyond the reality of the situation.
    Senator Feingold. I think that is a very fair comment. If 
we all the sudden all just talk about potential terrorist 
threats from Somalia and all the resources go there, then we 
are not thinking about what might be--what could happen if 
things got out of control in terms of the Thai Government's 
treatment of the people in Southern Thailand or what is 
happening in the Sowasi Sea in Indonesia. This is the tricky 
part of all of this, when we are dealing with a threat that has 
been reported to exist in 60-80 countries and another 20 
countries, potentially. This is where your expertise and work 
is so valuable--is that people may see this as esoteric, to 
spend so much time on a place like Somalia. But the reality is, 
if we don't have people like you, who are ready with the 
information and the type of knowledge that you've shown today, 
then we are threatened. So I do want to express not only my 
gratitude for your being here today but for your excellent 
testimony and your work in this area. It certainly gives me 
more confidence going forward as I try to make sure attention 
is paid to this issue. Again, I want to thank the chairman for 
being willing to have this hearing. Thank you very much. That 
concludes the hearing.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

</pre></body></html>
